<html>
<title> - HEARING ON SECURING THE VOTE: NEW MEXICO</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                HEARING ON SECURING THE VOTE: NEW MEXICO

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN LAS CRUCES, NM, AUGUST 3, 2006

                               __________

      Printed for the use of the Committee on House Administration


                    U.S. GOVERNMENT PRINTING OFFICE
30-169                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                        VERNON EHLERS, Chairman
Robert W. Ney, Ohio                  Juanita Millender-McDonald, 
John L. Mica, Florida                    California, Ranking Minority 
Candice Miller, Michigan                 Member
John T. Doolittle, California        Robert A. Brady, Pennsylvania
Thomas M. Reynolds, New York         Zoe Lofgren, California
                           Professional Staff
                      Will Plaster, Staff Director
                George Shevlin, Minority Staff Director


                     SECURING THE VOTE: NEW MEXICO

                              ----------                              


                        THURSDAY, AUGUST 3, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9 a.m., at the 
Memorial Medical Center, Conference Room A and B, 2450 Telshor 
Boulevard, Las Cruces, New Mexico, Hon. Vernon J. Ehlers 
(chairman of the committee) presiding.
    Present: Representatives Ehlers and Lofgren.
    Also Present: Representative Pearce.
    Staff Present: Peter T. Sloan, Professional Staff.
    The Chairman. The Committee will come to order.
    I'm very pleased to be in Las Cruces. I hate to admit it, 
this is my first time here. And I have been in New Mexico many 
times, but never in this corner.
    I have to admit I was surprised to find it 20 degrees 
cooler than my home state of Michigan. It's usually the other 
way around. But we are having a heat wave, and you're having 
cool weather and rain.
    First of all, I would like to ask all members of our 
audience here today to please silence all cellular phones, 
pagers, other electronic equipment to prevent interruption of 
the hearing. It is very disconcerting for a witness, who is 
terrified to be in front of terrible people like me, to 
suddenly have a phone ringing behind them. So please turn off 
all your electronic equipment. Thank you very much.
    Also, a few housekeeping items we need to attend to before 
the beginning of the hearing. Due to strict time limits, the 
Chair will be enforcing the five-minute rule for timing of both 
witnesses and members. This means that witnesses are limited to 
a five-minute time frame for their presentation, and that 
members, when they ask questions, will be limited to a five-
minute time frame for questioning.
    Without our usual timing machines available to indicate 
when the five-minute time frame has elapsed--you see, in the 
Congress, we have lights that go off and trapdoors that open up 
if we speak too long. We don't have that here, so I will simply 
tap my gavel on the block once to indicate that four minutes is 
up. And then, at five minutes, I'll remind you again. And I 
will do the same with member questions as well. And I ask 
everyone to try to be brief when answering questions of 
members.
    There are a number of witnesses here, and we have three 
members of Congress here who will be asking questions. So we'd 
like to give everyone an opportunity to say everything they 
want to say or ask everything they want to ask.
    I'm very pleased to introduce the other members of the 
panel. By the way, I'm Vernon Ehlers from Michigan. I'm Chair 
of the Committee on House Administration.
    And to my left is Ms. Zoe Lofgren from the San Francisco 
Bay area--the southern Bay area, a very valued member of the 
committee, also an attorney, which is always helpful to us.
    And to my right, a member of the House of Representatives 
from the wonderful State of New Mexico, Steve Pearce. We're in 
his territory. He was good enough to join us.
    And I ask unanimous consent that the gentleman from New 
Mexico, Representative Steven Pearce, be allowed to join us on 
the dais today, that he may be able to ask questions of the 
witnesses, enter a statement into the record, and preside for 
brief occasions if the Chair has to leave. Without objection, 
so ordered.
    We just have to go through that formality to welcome him 
and give him the privilege of speaking and asking questions.
    The committee is very pleased to be here today in Las 
Cruces for a field hearing on securing the vote. Today the 
committee will be looking into the issues raised by 
identification requirements and voting by non-citizens in 
federal elections.
    New Mexico has been grappling with these issues at the 
state level. And I thought, personally, that you would probably 
know a great deal about this and could be very helpful to us. 
So the committee hopes to gain some insight and perspective 
today by hearing from people who have been dealing with these 
issues firsthand. In short, we want to learn from you.
    My goal is very simple: To ensure that every citizen's vote 
in this nation will be accurately counted, and that everyone 
who wishes to vote will be allowed to vote, and that his or her 
vote will not be diluted by illegal votes or fraudulent 
miscounting of votes.
    Those who doubt that every vote matters need only look to 
New Mexico. The margins of victory in this state in each of the 
last two presidential elections show the importance of every 
single vote.
    In the election of 2000, Presidential Candidate Al Gore won 
the popular vote in New Mexico by just 365 votes out of almost 
600,000 cast. Incidentally, the margin in Florida that year was 
537, a more populous state. In 2004, President Bush won the 
popular vote in New Mexico by a slightly larger margin of 5,988 
votes out of 756,000 cast.
    These slim margins of victory highlight the importance of 
ensuring that every vote cast in an election is a valid one, 
cast by an eligible citizen and accurately recorded. While 
there may be disagreement over the scope and magnitude of 
voting errors and fraud, these numbers clearly demonstrate that 
when the margins are this close, even a small amount of fraud 
or error can sway an election.
    New Mexico has dealt with many election reforms, including 
identification requirements. While New Mexico's state 
legislature has passed an ID bill, debate continues in the 
state about the sufficiency and effectiveness of this law and 
whether or not it provides adequate protections to ensure 
electoral integrity. Elections are too important to be operated 
on an honor system. We cannot rely upon the honor of those 
among us who are inclined to commit fraud. We must ensure that 
we have procedures in place that protect the franchise.
    It has often been said that the purpose of the Help America 
Vote Act, better known as HAVA, was to make it easier to vote 
and harder to cheat. The election that will occur in November 
will be the first national election to occur with all the 
requirements of HAVA in place. Today's hearing will give us an 
opportunity to hear more about what is being done in the states 
to protect the franchise. And we do plan to carry this hearing 
to a number of different states so we can learn from a number 
of different localities.
    I certainly look forward to getting some outside-the-
beltway perspective on these issues. And I'm sure you've all 
heard about the problems inside the beltway.
    I thank all of our witnesses for coming. I look forward to 
their testimony.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.001
    
    [GRAPHIC] [TIFF OMITTED] T0169A.002
    
    [GRAPHIC] [TIFF OMITTED] T0169A.003
    
    The Chairman. At this time, I would like to recognize my 
fellow committee member, Ms. Zoe Lofgren, for any opening 
remarks she may have.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And as with you, I thank the people of Las Cruces for their 
hospitality. This is also my first time for being in Las 
Cruces, and it's a lovely place.
    I will say that with gas at $3.46 a gallon the last time I 
filled up, and with Israel and Hezbollah in a terrific fight 
that threatens the peace and the stability of the world, with 
the situation in Iraq unabated, and the Secretary of Defense on 
the hot seat right now before the Senate Armed Services 
Committee, it does seem that this is not the most important 
issue that faces our nation today.
    However, I came here today to make sure that there was full 
attendance from the committee. I do believe with this, the 
first hearing that we've had on this subject, and the hearing 
that we held in Washington provided almost no evidence that 
people who are here illegally are voting, but it did provide 
substantial evidence that individuals who might be asked to 
prove with a photo ID that they were citizens would 
disproportionately--Americans would disproportionately be 
disadvantaged.
    And in fact, the evidence that we received in our hearing 
in Washington indicated that those who would be most 
disadvantaged by the photo ID requirement, American citizens, 
would be African-Americans. And in fact, there was a study done 
in Milwaukee--I was astounded by this result, but when you 
think about it, it makes sense--that among African-American 
men, age 18 to 24, 78 percent of those young men, American 
citizens, did not have a driver's license or other photo ID. 
Why? Because they didn't have any money, and they didn't have a 
car.
    And so the HAVA act was meant to put some order in the 
system, but the real effort was to make sure that Americans had 
an opportunity to fully vote and participate in elections. 
Everybody knows that only Americans are allowed to vote. There 
is no dispute on that. So any effort that would go after kind 
of a phantom problem, and in the process, disadvantage large 
numbers of Americans who want to be able to vote would be the 
wrong--the wrong approach, in my judgment.
    Now, I--as the Chairman knows, I have a great deal of 
respect for Chairman Ehlers. We've served together not only on 
this committee and on the Science Committee, so this comment 
does not relate to him but to his party. This hearing is really 
part of a pattern throughout this recess, and I think it's 
important to put this into context. There are, as I counted, 27 
so-called field hearings on immigration being held by various 
committees around the country.Appropriations, Armed Services, 
Education, Workforce, Government Reform, Homeland Security, the 
Intelligence Committee, the International Relations Committee, the 
Judiciary Committee, the Science Committee, the Ways and Means 
Committee, all are out holding hearings on immigration. And I think 
it's pretty clear that it's an effort to try and stir up an issue for 
political ends, and I think that that is unfortunate.
    I will say that I will listen very carefully to all the 
testimony. I'm very honored that people took the time and made 
the effort to be here. The fact that this is a politicized 
effort is not the problem of the witnesses who have taken their 
time to be here, but I do think that that is what the game plan 
is for the party. And I'm here really to call attention to that 
fact and also to fully participate.
    So thank you, Mr. Chairman, for recognizing me for my 
statement. I look forward to further questions of the 
witnesses.
    The Chairman. Thank you for your comments.
    One thing I neglected to announce, we do not permit 
applause. Occasional laughter, maybe, if you have a reason for 
it, but no applause or other demonstrations. We like to 
maintain a decorum in the committee.
    Next, I'm pleased to welcome your Representative Steven 
Pearce to make his opening statement.
    Mr. Pearce. Thank you, Mr. Chairman, for the opportunity to 
visit and be a part of this panel. I don't normally sit on the 
committee, and so it's only with the consent of all members 
that I sit here. So I appreciate that and welcome you to the 
district, you and Ms. Lofgren. I would just kindly request that 
before you leave town, you spend lots of money.
    We--you are being treated to an unusual sight in New 
Mexico, and that's rain. Yesterday, I had a constituent saying, 
We're always praying for rain. Now we probably need to pray for 
it to stop. And I would just like to caution my constituents, 
last time we prayed for it stop, it quit for 12 years. So let's 
ask that it slow down a bit.
    But we are dealing with the water quite well in most 
circumstances and help is going to different districts.
    We are joined today by Suzie Cordero from Senator 
Domenici's office. I saw Representative Mary Helen Garcia, who 
I went to the legislature with at my freshman year. We were 
both freshmen together. Served on the Appropriations 
Committee--ah, right here in the front row--a great public 
servant.
    Representative Joseph Cervantes is somewhere in the 
audience, way in the back. We appreciate you coming out today. 
Another fine representative.
    And Bishop Ricardo Ramirez is here this morning. I got a 
letter from him when I voted against the bill that our office 
almost completely crafted. We did about 75 percent of the work 
on the House Immigration Bill, and then certain pieces of it 
were added on the floor which we felt like extended it too far, 
and voted against that. We appreciate that letter of support.
    Beginning right after the 2002 election, we submitted 
information to the House of Representatives about fraud that 
was occurring in the election process where I was elected. In 
fact, everyone in this county knows that the county clerk from 
that point--from that period of time of 2002, Ruben Ceballos, 
was actually indicted on more than 10 counts of voter fraud and 
eventually convicted of that.
    And so I think, Mr. Ehlers, that I'm glad you're here 
talking about the broader aspect of voter reform.
    As it eases up to the question of illegals voting, I would 
just urge caution because 47 percent of the members of this 
district are Hispanic, and I would hate for the attempt to find 
the illegals voting would cross across the line and begin to 
just identify randomly, because many people have been here 
longer than my family--Hispanic residents, they have been here 
longer than my family. And I would urge caution at that point.
    But I appreciate the fact that you're here.
    The immigration issue does not need stirring up. It's been 
about as hot and as volatile as any issue that we have. And so 
if it takes 27 field hearings to--to really get closer to the 
truth, I think we should take the time to get closer to the 
truth; that we should know when we pass legislation in 
Congress, that it is actually reflective of the will of the 
people.
    And so I appreciate the fact that you're here, the fact 
that you're taking the testimony of people from New Mexico, 
because I think that--that it's one of the most important 
issues. If we, as American people, lose confidence in the 
voting system and in our right to vote and in the sacredness of 
our vote, we will go a long ways to undermining the democracy 
and the freedom that we're fighting for in other countries at 
this particular time.
    So I look forward to the testimony today, and we look 
forward to being able to question witnesses.
    I thank again the Chairman for his indulgence to sit on the 
committee.
    The Chairman. Thank you very much and I appreciate your 
presence.
    I also want to mention that we have a representative from 
Senator Domenici's office here as well, and I appreciate that. 
I've worked with Senator Domenici on a number of issues. We are 
both interested in science--I'm a scientist. He sits on 
committees that deal with science, and we have been able to 
collaborate on some important issues, and he's a very fine 
senator. I'm pleased you sent him to Washington.
    I'd also like to clarify a point which was made by Mr. 
Pearce, and that is, this not a hearing devoted to talking 
about illegal immigrants. I've been on the House Administration 
Committee, which is responsible for election issues, been on 
that committee for quite a few years now. And it was astounding 
to me--because I always assumed Americans were honest, they 
would vote honestly and so forth, I was just astounded at the 
number of illegal votes that get cast. I remember particularly 
an election in North Carolina which we had to oversee, and the 
fraud that was there was just incredible.
    So don't misunderstand the purpose of the hearing. I am 
opposed to all illegal voting. I'm also very strongly in favor 
of everyone voting who wishes to vote and is legally entitled 
to do that.
    I would like to welcome our first and only panel of the 
day. We have with us the Representative Justine Fox-Young of 
the New Mexico House of Representatives; Vickie Perea, a former 
member of the Albuquerque City Council; Daniel Bryant, an 
attorney; Jennifer Hensley, an advocate with the New Mexico 
Protection and Advocacy System, Incorporated; Kimmeth Yazzi, 
the program and project specialist with the Navajo Election 
Administration; and Kathleen Walker--I'm sorry, there you are--
partner at Kemp Smith. Welcome all, and we look forward to your 
testimony.
    All right. It's my pleasure today to introduce 
Representative Fox-Young. And you have five minutes for your 
testimony.

       STATEMENT OF JUSTINE FOX-YOUNG, NEW MEXICO STATE 
               REPRESENTATIVE, HOUSE DISTRICT 30

    Ms. Fox-Young. Thank you, Mr. Chairman, members of the 
committee. Thank you for the invitation to testify today. We 
are happy to have you in New Mexico.
    My name is Justine Fox-Young. I serve in the New Mexico 
House of Representatives, in District 30 in Albuquerque.
    I drove down this morning. We do a lot of driving in New 
Mexico. It's a big state, and there's a lot of country to 
cover. But I drove down, and I was reminded of the--what are 
here famous words, of Lou Wallace, who was the territorial 
governor from 1878 to 1881, who said that ``All calculations 
based on our experiences elsewhere fail in New Mexico.''
    This is--as I came into first light coming into Truth or 
Consequences, New Mexico, and a parasailer came over the 
highway about 50 feet above me and kind of cruised on, just 
coasting over. Shortly after that, a light rain started, which 
turned to driving rain. And then coming into Cruces, the sky 
opened, the light came down, and it was just absolutely lovely, 
as it often is here.
    But I just think it's important--and as the committee is 
acutely aware, each state is different, and we all have our 
preferences as elections are concerned. New Mexico certainly 
has its idiosyncrasies, but it's important to note that our 
local election officials do an extraordinary job with the 
resources that they have.
    I, personally, in state legislature, have carried a number 
of election reform bills covering voter ID, provisional 
ballots, counting procedures, voting machine testing procedures 
and others. And I think there are few issues more important 
than ensuring free and fair elections in New Mexico. So I'm 
here today because of my concern for the election process here.
    On the issue of illegal immigrants voting here, it's 
extremely difficult to quantify the problem because we have no 
database. Although I know that many federal and state agencies 
have the components to do it, we have no data available to 
local officials to validate citizenship and--alongside voter 
registration polls. So I think it's very clear, based upon all 
the evidence from the 2000 election and 2004 election and 
others that the potential for fraud exists here as it relates 
to illegal immigrants, but it's difficult to quantify.
    I'd just say that in the months leading up to the general 
election in 2004, there were over 150,000 new registrants in 
New Mexico. There are significant incentives for 527 groups and 
their agents to register new registrants all over the country. 
Here, we finally reached the million mark in 2004 with over a 
15 percent increase in registrants. And in Bernalillo County 
alone, there were over 3,000 registrations caught, so to speak, 
by the Bernalillo County Clerk.
    And I've included examples here. I won't go through all of 
them. However, if you look at Exhibit A briefly, the sorts of 
things that we've seen here aren't, I'm sure, terribly 
different from what you see in other states, but numerous 
duplicate registrations at single addresses, 13- and 15-year-
olds registered to vote.
    There is a letter, in Exhibit A, from an individual, Mr. 
James Dickey from Tucson, Arizona, who received a voter 
registration card here in New Mexico despite the fact that he 
had not been a New Mexico resident for over nine years. He had 
to petition to be removed from the voter roster. This is not 
unusual. In fact, as I said, you know, we have seen thousands 
and thousands of these and continue to do so.
    Exhibit B includes examples from the 2000 election that are 
very similar. Instances where individuals who appear to be 
deceased here in Dona Ana County, for whom obituaries ran, were 
present on the 2000 voter roster and voted. Clear--clear 
indicators that there is a problem. Not necessarily an 
absolute. But our state election officials have not, to my 
mind, adequately addressed some of these issues.
    In each case where we find what appears to be fraudulent--
and some fraudulent registration and fraudulent voting, there 
is no systematic method for detecting this. Even after HAVA, 
even after the election reforms that we've put in place here, 
even after the very loose sort of voter IDs that the 
legislature passed in the last election, sometimes, you know, 
through a fortuitous sequence of events, we find things. More 
often than that, we don't.
    And so I'm in no position to produce a credible figure of 
the number of fraudulent votes that there may be and certainly 
of the number of illegal immigrants who are registered to vote. 
However, I can tell you that in New Mexico over--now, like over 
30,000 individuals who are illegal immigrants have received 
driver's licenses, and every single one of them is asked 
whether or not they would like to register to vote as part of 
the Motor Voter Act. And so there--there are likely huge 
numbers who did subsequently register. We have anecdotal 
information that this committee has seen on that issue.
    On the general issue of voter ID, it's reasonable to assume 
that the individuals, the population who are perhaps most 
suspicious of the voting process here and anywhere else are new 
registrants. In 2004, a national polling firm conducted a poll 
of 500 new registrants, and that is attached--the key findings 
of that poll are attached as Exhibit C in my testimony--and 
found that 99 percent of those folks, if asked to produce some 
form of ID, would be happy to, that it wasn't an overly 
burdensome request and it wouldn't prevent them from voting. So 
a summary of key findings is there.
    But the second important development on this issue, the 
general voter identification in New Mexico, the city of 
Albuquerque recently enacted a new ordinance, which is a strict 
voter ID ordinance--photo voter ID. And unlike some other 
areas, we did provide free ID for these folks and that has 
worked beautifully and worked beautifully in the last general 
election.
    Is that five minutes?
    The Chairman. Yes.
    Ms. Fox-Young. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you very much for your testimony.
    [The statement of Ms. Fox-Young follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.004
    
    [GRAPHIC] [TIFF OMITTED] T0169A.005
    
    [GRAPHIC] [TIFF OMITTED] T0169A.006
    
    [GRAPHIC] [TIFF OMITTED] T0169A.007
    
    [GRAPHIC] [TIFF OMITTED] T0169A.008
    
    [GRAPHIC] [TIFF OMITTED] T0169A.009
    
    [GRAPHIC] [TIFF OMITTED] T0169A.010
    
    [GRAPHIC] [TIFF OMITTED] T0169A.011
    
    [GRAPHIC] [TIFF OMITTED] T0169A.012
    
    [GRAPHIC] [TIFF OMITTED] T0169A.013
    
    [GRAPHIC] [TIFF OMITTED] T0169A.014
    
    [GRAPHIC] [TIFF OMITTED] T0169A.015
    
    [GRAPHIC] [TIFF OMITTED] T0169A.016
    
    [GRAPHIC] [TIFF OMITTED] T0169A.017
    
    [GRAPHIC] [TIFF OMITTED] T0169A.018
    
    [GRAPHIC] [TIFF OMITTED] T0169A.019
    
    [GRAPHIC] [TIFF OMITTED] T0169A.020
    
    [GRAPHIC] [TIFF OMITTED] T0169A.021
    
    [GRAPHIC] [TIFF OMITTED] T0169A.022
    
    [GRAPHIC] [TIFF OMITTED] T0169A.023
    
    [GRAPHIC] [TIFF OMITTED] T0169A.024
    
    [GRAPHIC] [TIFF OMITTED] T0169A.025
    
    [GRAPHIC] [TIFF OMITTED] T0169A.026
    
    [GRAPHIC] [TIFF OMITTED] T0169A.027
    
    [GRAPHIC] [TIFF OMITTED] T0169A.028
    
    [GRAPHIC] [TIFF OMITTED] T0169A.029
    
    [GRAPHIC] [TIFF OMITTED] T0169A.030
    
    [GRAPHIC] [TIFF OMITTED] T0169A.031
    
    [GRAPHIC] [TIFF OMITTED] T0169A.032
    
    [GRAPHIC] [TIFF OMITTED] T0169A.033
    
    [GRAPHIC] [TIFF OMITTED] T0169A.034
    
    [GRAPHIC] [TIFF OMITTED] T0169A.035
    
    [GRAPHIC] [TIFF OMITTED] T0169A.036
    
    [GRAPHIC] [TIFF OMITTED] T0169A.037
    
    [GRAPHIC] [TIFF OMITTED] T0169A.038
    
    [GRAPHIC] [TIFF OMITTED] T0169A.039
    
    [GRAPHIC] [TIFF OMITTED] T0169A.040
    
    [GRAPHIC] [TIFF OMITTED] T0169A.041
    
    [GRAPHIC] [TIFF OMITTED] T0169A.042
    
    [GRAPHIC] [TIFF OMITTED] T0169A.043
    
    [GRAPHIC] [TIFF OMITTED] T0169A.044
    
    [GRAPHIC] [TIFF OMITTED] T0169A.045
    
    [GRAPHIC] [TIFF OMITTED] T0169A.046
    
    [GRAPHIC] [TIFF OMITTED] T0169A.047
    
    [GRAPHIC] [TIFF OMITTED] T0169A.048
    
    [GRAPHIC] [TIFF OMITTED] T0169A.049
    
    [GRAPHIC] [TIFF OMITTED] T0169A.050
    
    [GRAPHIC] [TIFF OMITTED] T0169A.051
    
    [GRAPHIC] [TIFF OMITTED] T0169A.052
    
    [GRAPHIC] [TIFF OMITTED] T0169A.053
    
    [GRAPHIC] [TIFF OMITTED] T0169A.054
    
    [GRAPHIC] [TIFF OMITTED] T0169A.055
    
    [GRAPHIC] [TIFF OMITTED] T0169A.056
    
    [GRAPHIC] [TIFF OMITTED] T0169A.057
    
    [GRAPHIC] [TIFF OMITTED] T0169A.058
    
    [GRAPHIC] [TIFF OMITTED] T0169A.059
    
    [GRAPHIC] [TIFF OMITTED] T0169A.060
    
    [GRAPHIC] [TIFF OMITTED] T0169A.061
    
    [GRAPHIC] [TIFF OMITTED] T0169A.062
    
    [GRAPHIC] [TIFF OMITTED] T0169A.063
    
    [GRAPHIC] [TIFF OMITTED] T0169A.064
    
    [GRAPHIC] [TIFF OMITTED] T0169A.065
    
    [GRAPHIC] [TIFF OMITTED] T0169A.066
    
    [GRAPHIC] [TIFF OMITTED] T0169A.067
    
    [GRAPHIC] [TIFF OMITTED] T0169A.068
    
    [GRAPHIC] [TIFF OMITTED] T0169A.069
    
    [GRAPHIC] [TIFF OMITTED] T0169A.070
    
    [GRAPHIC] [TIFF OMITTED] T0169A.071
    
    [GRAPHIC] [TIFF OMITTED] T0169A.072
    
    [GRAPHIC] [TIFF OMITTED] T0169A.073
    
    [GRAPHIC] [TIFF OMITTED] T0169A.074
    
    [GRAPHIC] [TIFF OMITTED] T0169A.075
    
    [GRAPHIC] [TIFF OMITTED] T0169A.076
    
    [GRAPHIC] [TIFF OMITTED] T0169A.077
    
    [GRAPHIC] [TIFF OMITTED] T0169A.078
    
    [GRAPHIC] [TIFF OMITTED] T0169A.079
    
    [GRAPHIC] [TIFF OMITTED] T0169A.080
    
    [GRAPHIC] [TIFF OMITTED] T0169A.081
    
    [GRAPHIC] [TIFF OMITTED] T0169A.082
    
    [GRAPHIC] [TIFF OMITTED] T0169A.083
    
    [GRAPHIC] [TIFF OMITTED] T0169A.084
    
    [GRAPHIC] [TIFF OMITTED] T0169A.085
    
    [GRAPHIC] [TIFF OMITTED] T0169A.086
    
    [GRAPHIC] [TIFF OMITTED] T0169A.087
    
    [GRAPHIC] [TIFF OMITTED] T0169A.088
    
    [GRAPHIC] [TIFF OMITTED] T0169A.089
    
    [GRAPHIC] [TIFF OMITTED] T0169A.090
    
    [GRAPHIC] [TIFF OMITTED] T0169A.091
    
    The Chairman. Next we go to Ms. Perea.

 STATEMENT OF VICKIE PEREA, PRESIDENT, ALBUQUERQUE CITY COUNCIL

    Ms. Perea. Thank you, Mr. Chairman. It's an honor for me to 
come before you today to talk about a relevant and important 
issue to the state of New Mexico.
    My name is Vickie Perea. I'm a lifelong New Mexican, a wife 
of 43 years, a mother of two, and grandmother of two. I have 
served as a City Councilor and eventually City Council 
President in Albuquerque.
    Over the last two years, I've had the opportunity to study 
the history of elections management in New Mexico. And I 
appreciate your willingness to come to New Mexico to discuss 
this issue.
    At this time, Mr. Chairman, I'd like to walk you through a 
brief Power Point presentation that details only a small part 
of the fraud that has existed in New Mexico's election system 
and how true voter identification could help to stop future 
fraud.
    I'll begin with the most blatant examples of votes being 
stolen from New Mexico voters in 2004. Rosemary McGee is a 
Bernalillo County voter who tried to vote on election day in 
2004, only to find that someone else had signed the voting 
roster in her place early in the day and spelling her name 
wrong. She voted on a provisional ballot, and later learned 
that her legal vote was not counted. You can see the voting 
roster on this slide with Rosemary's actual signature on the 
bottom and the signature of the person who voted in her place 
on the top. On the next slide, you can see the ``No'' box 
checked and circled, indicating that her legal vote was not 
counted.
    Unidentified Speaker 1. Can you turn out some of the lights 
up front so we can see it?
    Mr. Pearce. There's a screen behind you as well. You may be 
able to get a better look at the back.
    The Chairman. Yeah. You can also look behind you.
    Ms. Perea. But Rosemary is not the only one. This also 
happened to Dwight Adkins, Kim Wistrand, Stephanie Ortiz, 
Heather Philpot and Frank Sanchez. Six voters who we know about 
whose votes were taken from them in 2004.
    I believe that a true voter identification measure is the 
foundation of a secure election system, and all of these people 
would have been able to cast a ballot and have it counted if 
voters had been required to show a photo voter ID.
    But let me now briefly walk you through a past history of 
voter problems, beginning with the very early example, in 1992, 
with Elodia Candelaria, a community activist in Albuquerque who 
was convicted of embezzlement and voter fraud. In 1997, Rio 
Arriba County's Deputy Clerk, Henrietta Sandoval-Smith, was 
convicted of voter fraud, saying at the trial, ``I've always 
been guilty.'' She was part of an extensive voter fraud ring in 
which 19 people were indicted on voter fraud charges, including 
city councilors, a school board chairman, a party chairman, a 
state police captain, a city manager and others. These charges 
included false swearing, false voting, falsifying voter 
registration forms and unlawfully opening ballot boxes and so 
on.
    Rio Arriba County Clerk David Chavez and his deputy clerk, 
Vicky Martinez, were two of those who were found guilty and 
sentenced to jail time, with testimony indicating that they had 
illegally opened ballot boxes in the '96 primary and the 1997 
special election, one time with bolt cutters from the local 
jail.
    This is not the only county clerk to be convicted of fraud, 
however. In 2003, Dona Ana County Clerk Ruben Ceballos was 
convicted of five counts of violating New Mexico Election Code.
    In 2000, a district judge claimed that the New Mexico 
election had been compromised and the ballot box containing 252 
ballots went missing in Bernalillo County. A locked ballot box 
was later found in the back room of a warehouse containing 
about 250 ballots.
    In 2004, during the canvassing of the thousands of 
provisional ballots in Bernalillo County, the county clerk 
noted that her workers had seen approximately two dozen 
instances of double voting, meaning that at least 24 voters had 
attempted to vote two times in that election.
    And also, in 2004, we saw significant problems with the 527 
voter registration organizations. In addition to dropping off 
droves of fraudulent registration forms to county clerks in New 
Mexico--many were caught before being processed--there were a 
number of instances where forms were processed and illegal 
voters were registered or registered voters were re-registered 
without their knowledge and oftentimes under incorrect Social 
Security numbers.
    For example, a police officer named Glen Stout received a 
voter registration card for his 13-year-old son and another one 
for a 15-year-old neighbor, both of whom had been registered to 
vote by an ACORN employee. Stout worried that these cards would 
have been sent to another address and someone less honest than 
he would have been--would have used them to vote on election 
day under his son's name.
    A Tucson, Arizona man received a voter card in his mail. An 
ACORN employee was found to have registered the man in 
Albuquerque without his knowledge. And we know that fraudulent 
registrations have been submitted by ACORN in Denver, and 
employees who have been fired for fraud in Ohio.
    In other instances, police raided an Albuquerque home for a 
drug search, only to find fraudulent voter registration forms 
at the house, along with a crack pipe. The individual was being 
paid $5 for each registration form that he turned in. There 
were also reports of deceased individuals being registered to 
vote.
    Ladies and gentlemen, I'm running out of time with you 
today, but know that true election reform has been called for 
by good people on both sides of the political aisle and by the 
editorial boards of newspapers and other publications 
throughout New Mexico.
    And in the municipal election in 2005, Albuquerque voters 
overwhelmingly supported a photo voter identification provision 
with approximately 73 percent approval.
    I believe strongly that a system in which voters are 
required to show photo ID to vote will prevent much of the 
voter fraud that we see in our election system today. It is a 
measure that can be fairly applied so as not to disenfranchise 
a single voter, and it would go a long way to increasing ballot 
security in New Mexico.
    And in a system with a photo ID provision, falsely 
registering voters would be a pointless endeavor because voting 
under their name would all but be impossible.
    I would like to thank you again for spending time in our 
beautiful state. I love New Mexico and all that it has to 
offer. I just know that our children deserve a clean, fair and 
honest democratic process.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Ms. Perea follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.092
    
    [GRAPHIC] [TIFF OMITTED] T0169A.093
    
    [GRAPHIC] [TIFF OMITTED] T0169A.094
    
    [GRAPHIC] [TIFF OMITTED] T0169A.095
    
    The Chairman. Mr. Bryant.

  STATEMENT OF DANIEL A. BRYANT, ESQ., GENERAL COUNSEL, OTERO 
                       COUNTY, NEW MEXICO

    Mr. Bryant. Thank you--pardon me. Thank you, Mr. Chairman.
    It's a pleasure to be here today. I had prepared myself to 
welcome you to sunny New Mexico, and I have to tell you I'm 
delighted that I can't welcome you to sunny New Mexico. We are 
happy for the rain.
    I live in rural New Mexico up in the mountains north of 
Ruidoso, in Lincoln County. I'm married. I have five children. 
I'm a lawyer. I've practiced here for 28 years.
    I've represented Otero County as their general counsel that 
entire time. And I have been on-site in the county clerk's 
office from about 5:00 a.m. in the morning until God knows when 
at night for every election every two years ever since. And 
I've seen a lot of things happen.
    And I just want to express, initially, the opinion that in 
terms of voter registration and voter ID and ensuring that the 
person who is either signing an absentee ballot or an early 
ballot roster or a voter roster on election day is the person 
who is on the list at the address, in New Mexico, the system is 
just broken. In fact, it just doesn't exist.
    The examples that Ms. Perea has just shared with you are 
spread all over the state of New Mexico. I have been working 
with a group of volunteers associated with the Republican party 
here in Dona Ana County, and they have been working for more 
than two years looking at some of the issues that have come up 
in elections here. And frankly, it's frightening.
    When we heard about New Mexico's voter ID law, and we 
looked at how it was going to work, frankly, we chuckled. It 
was a joke from the start. And we've seen very similar 
processes and similar problems happen here.
    Once the voter ID cards started coming out, Cecilia 
Levitino, who is with us in the audience today, has lived at 
her address for more than four years. And she received her 
voter ID card and was delighted. And a few days later, she 
received another voter ID card in the name of Karen Wright at 
the same address. Ms. Wright hadn't lived there for more than 
four years.
    Now, if Ms. Levitino wasn't a committed American and a 
dedicated, ethical person, she'd have the opportunity to go to 
the poll and vote each one of those ID cards and exacerbate the 
problem here in New Mexico.
    In the 2006 primary election, to give you a recent example, 
Mr. Sid Goddard, the chair of the local party--I'm representing 
them, and they said, ``Dan, what can we do? How can we bring 
some legitimacy and verifiability to the election process 
here?''
    And I said, ``Well, you know, the most important thing we 
can do is be visible. We'll stop 85 percent of it if we'll just 
let them know we are here, and you need to watch us, and we're 
watching you.
    Well, Mr. Goddard was in the county clerk's office after 
the polls had closed on election night. And a young man walked 
in and he had a stack of absentee ballots, about 30 of them. 
And he walked up to the counter, and he said, ``Who do I give 
these to.''
    And the young clerk asked him what his name was, and he 
shared that with her. And she said, ``Well, where did you get 
these?''
    And he said, ``Well, Lupe gave them to me.''
    And then she asked him, ``Well, what precinct are you 
from?''
    And he said, ``Well, I'm down by Sunland Park and 
Anthony.''
    And because Mr. Goddard was there and because he was taking 
notes and watching, those ballots were taken around to the 
Absentee Voter Precinct Board, and they were instructed that 
night to reject those. And they counted them, and it turned 
out, in that instance, we caught 27.
    How many got delivered in that fashion that we didn't 
catch? An effective voter ID registration system and photo ID 
for voting would prevent a significant part of that.
    I've been involved in enough elections that I don't want to 
sit here and tell you that it's my opinion that photo ID is 
going to solve it all. But what it is, is it is the essential, 
the critical first step in creating a system that really 
guarantees to Americans that their vote counts.
    I've got another volunteer with me in the room today, Mr. 
Tom Walker, and he's been doing some work, and we've asked him 
to look at just one precinct here in the county. And so he 
started looking at the voter registration list and he started 
checking addresses. We looked for deceased voters. We found 
over 60 deceased voters that are still on the voter 
registration list.
    We then did some more analysis just to take a look at it, 
and we were able to see, by looking back at the voter rosters 
and the lists of who voted in prior elections, that many of 
those 60 voters had voted every election, year after year after 
year, and then it cut off and it stopped and you see a break 
for four or five years, you know something has happened.
    New Mexico has a law. The Bureau of Vital Statistics 
provides a list to the county clerks. The county clerks are 
supposed to take that list and remove those deceased persons 
from the voter rolls. It isn't happening. Every one of those 
votes--every one of those registrations that's still on the 
list is a potential for a fraudulent vote. Why? Because I walk 
in and I say, ``My name is Fred Jones.'' And they look on their 
roster, and Fred Jones is on the roster. I reach out with my 
pen. I sign my name. They hand me a card. I go to the machine 
and I vote. And that is what we do when we vote on election day 
in New Mexico.
    There is no way to stop me from voting if I know Mr. Jones 
is dead and I know that he's still on the registration polls. 
If I had to show you an ID, and I had to get an ID that looked 
like this, and it said Dan Bryant, I couldn't have voted for 
Mr. Jones.
    It's a critical first step in helping to solve this problem 
and create some confidence in our voting.
    The Chairman. Thank you very much for your testimony.
    [The statement of Mr. Bryant follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.096
    
    [GRAPHIC] [TIFF OMITTED] T0169A.097
    
    [GRAPHIC] [TIFF OMITTED] T0169A.098
    
    The Chairman. Please to recognize Ms. Walker.

    STATEMENT OF KATHLEEN CAMPBELL WALKER, PRESIDENT-ELECT, 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Ms. Walker. Good morning, Chairman Ehlers, Representative 
Pearce and Representative Lofgren. Thank you for the 
opportunity to provide testimony this morning.
    My name is Kathleen Campbell Walker. I am president-elect 
of the American Immigration Lawyers Association. It is an 
association affiliated with the ABA, American Bar Association, 
in existence since 1946. And we have about 10,000 lawyers as 
members nationally.
    I'm here today to try to address the immigration law side 
of the equation. I am obviously not a Voting Rights Act expert. 
I will profess to at least know something about immigration law 
after practicing for 21 years here in El Paso, Texas--here, a 
little farther down on the border, I should say.
    What I'm very concerned about is that we obviously need to 
keep the right to vote sacrosanct. But when we talk about the 
issue of identity, that particular issue has permeated the area 
of immigration law in almost every facet, and especially, of 
course, since 9/11, and it should. But the issue that we are 
trying to deal with, in a voting perspective, is establishing 
citizenship.
    Now, in trying to prepare for this hearing, I went through 
Proposition 200 in Arizona, Representative Hyde's 4844 bill, 
and Mr. Tancredo's 5915 bill recently introduced, and the idea 
is trying to prove citizenship. Well, in the immigration field, 
that's something that is sacrosanct as well. In order to truly 
establish citizenship, there are a few documents that the 
federal government considers acceptable to establish that you 
are a citizen. And when we're, just as we've heard from other 
members of this panel, having difficulties in just basic ID, I 
can only imagine the horror that would be created in attempting 
to truly establish whether or not some voter is indeed a U.S. 
citizen.
    Let me try to outline some issues that unfortunately the 
Department of Homeland Security and the Department of State are 
frontally against the wall in dealing with this issue.
    Identity is not citizenship. Identity you might see in 
Proposition 200 as being established by utility bills as an 
alternative form of record, or even a birth certificate--and 
I've got to tell you that if you want to look at the 9/11 
Commission's report, we have a problem in the lack of 
consistency or authenticity procedures concerning our birth 
certificates. So what do we rely upon when we are looking at 
someone entering the United States to establish they're a U.S. 
citizen?
    As it stands right now, I'm sure you all have heard about 
the Western Hemisphere Travel Initiative, a program or a--it's 
based on the Terrorism Prevention Act in 2004 that would 
require U.S. citizens and Canadians coming back from a visit to 
Mexico or Canada, for example, to be able to prove that they 
are U.S. citizens. And if you look at the documentation of 
about how many citizens we have that are crossing our northern 
and southern borders that would need passports--I just wanted 
to make a quick reference--in fiscal year 2001, there were 
314,346,000 inspections on the southern border. Of those 
inspections 93 million were U.S. citizens. If I look on the 
northern border, about 100 million inspections were made in 
2001. 39 million U.S. citizens. If I add those together, I'm 
coming up with about the number of people that voted in the 
November 2004 presidential election.
    Already, we have the Senate passing a proposal to delay the 
requirement of proof of U.S. citizenship to January of 2009, 
based on the obvious problem of either being able to issue U.S. 
passports or even an alternative form of document that is being 
proposed that's like an electronic passport. So we have issues 
in being able, even through the federal government, of doing 
this job.
    And also some other examples, U.S. VISIT. U.S. VISIT is 
supposed to be tracking entry and exit into our country. And as 
it stands right now, we have yet to be able to implement exit 
control. Anybody along the border will tell you that we don't 
even have facilities to enable one to inspect vehicles 
departing the United States to confirm whether or not someone 
has actually departed.
    And in addition, are we going to have people that are going 
to get out of cars and present themselves? I can assure you 
that in El Paso, Texas, as well as in Las Cruces, that you are 
not going to have the ability to get commerce back and forth if 
that particular provision is implemented.
    So what's happened, logic has indeed prevailed to some 
degree, and we have postponed the full implementation of what 
originated as Section 110, IIRAIRA, because of the practical 
impossibility.
    What we want is not optical security issues. What we want, 
in a voter registration perspective, are not optical placebos. 
I think that the idea of identity verification is one you have 
to cautiously balance against the concern of voter suppression, 
and make sure that you think of the poor or the disabled and 
those unable to have access or means to be able to provide 
documentation of just status, period, without talking about 
citizenship.
    Let's have a further example in the employment verification 
context. Employers having to document whether or not someone is 
legally eligible to work, one factor, and then, in addition to 
that, their identity. There are list, A, B and C documents. In 
the testimony provided--
    He has gotten the gavel.
    In the testimony provided, you will see that there is an 
example of the I-9 form, which for U.S. citizenship purposes, 
you can prove citizenship by a U.S. passport, certificate of 
citizenship, or a certificate of naturalization. To obtain a 
certificate of citizenship right now costs over $200 and months 
to process.
    So what I'm trying to invoke here is that it's quite 
difficult to be able to impose that requirement from a 
documentation perspective.
    And in brief summary, I also want to make sure that you are 
aware, if someone is a non-citizen and they vote, there are 
extremely severe consequences in U.S. immigration law to that 
action. There are two provisions of law that everyone should 
know about. Title 18, Section 1015, which makes it a felony, 
punishable by a fine of up to five years of imprisonment, if 
you claim U.S. citizenship falsely as your basis to vote in any 
federal, state or local election.
    In addition to that, in Section 611, if I vote in a federal 
election, that is a criminal action, punishable by a fine or up 
to one year imprisonment or both; and in addition, from an 
immigration perspective, if I do so, I'm subject to removal 
from the United States; and in addition to that,inadmissibility 
to the United States.
    So I would try to conjecture here that anyone in their 
right mind, who wishes to guard their right to live and work in 
the United States, would never hesitate to cross--excuse me--
would never cross that line to vote knowing these consequences.
    What I would suggest is that if we have a voter education 
campaign of trying to provide those who register individuals to 
vote with information about the consequences to a non-citizen 
if they do, then this concern would be resolved.
    Thank you, sir. I see I'm out of time.
    The Chairman. Thank you.
    [The statement of Ms. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.099
    
    [GRAPHIC] [TIFF OMITTED] T0169A.100
    
    [GRAPHIC] [TIFF OMITTED] T0169A.101
    
    [GRAPHIC] [TIFF OMITTED] T0169A.102
    
    [GRAPHIC] [TIFF OMITTED] T0169A.103
    
    [GRAPHIC] [TIFF OMITTED] T0169A.104
    
    [GRAPHIC] [TIFF OMITTED] T0169A.105
    
    [GRAPHIC] [TIFF OMITTED] T0169A.106
    
    [GRAPHIC] [TIFF OMITTED] T0169A.107
    
    [GRAPHIC] [TIFF OMITTED] T0169A.108
    
    [GRAPHIC] [TIFF OMITTED] T0169A.109
    
    [GRAPHIC] [TIFF OMITTED] T0169A.110
    
    [GRAPHIC] [TIFF OMITTED] T0169A.111
    
    [GRAPHIC] [TIFF OMITTED] T0169A.112
    
    [GRAPHIC] [TIFF OMITTED] T0169A.113
    
    [GRAPHIC] [TIFF OMITTED] T0169A.114
    
    The Chairman. But I'm sure that as we ask questions, you 
will have time to express more of your thoughts. I'm going to 
get back to you on that.
    Ms. Walker. Thank you.
    The Chairman. Mr. Yazzi.

   STATEMENT OF KIMMETH YAZZI, REPRESENTATIVE, NAVAJO NATION

    Mr. Yazzi. Good afternoon. Thank you for letting me testify 
before this hearing.
    First of all, Native Americans, they have been here for a 
while. We've been here for a while. And--but it wasn't until 
1924 that we were granted citizenship by the United States. And 
then, in 1948, we were granted the right to vote, and we love 
to vote. We love to vote--the voter turnout percentage for 
Native Americans has always been high.
    And earlier you mentioned something about swing vote. And I 
believe Native Americans have made the deciding vote in some of 
the local, state and federal elections.
    There are 22 tribes in New Mexico. I'm here on behalf of 
the Navajo people. The Navajo Reservation extends into six 
counties up in the northwestern area. And that's who I'm 
testifying for.
    We are talking about immigration issues here, and we are 
talking, I believe, some about the boundary issues, too. And we 
have a lot of boundary issues with our nation as well. We have 
Mexico to the south, we have Texas to the east, Oklahoma to the 
east, Colorado to the north, Utah, Arizona. Our nation is 
surrounded by boundaries, and we have a lot of concerns with 
these boundaries as well, as Native Americans.
    As far as IDs, our tribe, there's only a few people, a 
few--maybe a little over half that have IDs, pictorial IDs. We 
have tribal identifications, but they're not--they don't have 
pictures on them. They only have limited information on them, 
like tribal census numbers, what day we were born, where we 
were born. Sometimes it has the tribes that we were born into.
    The Navajo Nation is generally a rural area. We do not have 
streets. We do not have addresses where the residential 
addresses can be identified by numbers or streets. We live in 
rural areas. Our rural--our addresses are identified by 
physical boundaries, physical locations, chapter houses, 
highways, intersections, so many miles from here, so many miles 
from there. And sometimes they laugh about us. They say, 
``Indians live in post office boxes.'' That's mainly what our 
addresses are.
    But one thing that we have for sure is, we have the right 
to vote. As Native Americans, we love that right. As a matter 
of fact, I'm sitting before you, I'm registered in two 
locations. I'm registered for the Navajo Nation elections. We 
elect our president, we elect our vice president, our Navajo 
Nation Council, school board, land board, farm board, all these 
people that represent us in the tribal government. But I also 
am a registered member of the United States government. So I 
also vote for the United States president, the senators, the 
congressmen. So we kind of feel like we are two people, because 
we can vote in two places.
    And then this voter identification issue has--it's going to 
limit our nation because of some of the stats that I'm going to 
give you, okay.
    Thirty-three percent of our Navajo people, we don't have 
plumbing. Sixty-two percent do not have telephones. Twenty 
percent do not have access to vehicles. Fifty-six percent of 
our Navajo people do not have modern heating. We have to chop 
woods and bring it up and build a fire in the stove. That 
doesn't mean that we want all these modern things. I think we 
are satisfied with what we have.
    But this is where voter identification--we don't--a lot of 
the Navajos, they don't--they don't have bills that they are 
sent to. They don't have electric--telephone bills. They don't 
have electricity bills. They don't have heating bills. And if a 
telephone bill goes to a location, to an individual's house, 
there might be five, six people living in that household, and 
the bills only go to one individual.
    So, in Arizona, we are dealing with Proposition 200, and 
those are some of the issues that come up there, where they 
want us to present two bills, like a telephone or a utility 
bill. But because only one individual in the household receives 
the bills, other people cannot use the same ones.
    One thing that I think about personally, when the subject 
of immigration comes up, the subject of illegal voting comes 
up, illegal voter registration, and just like the other 
industries, like the liquor industry or the cigarette industry, 
we should go after the administrators, the people that 
provide--the top people instead of the voters, instead of the 
consumers.
    And for voter registration, that's what I feel, we should--
we should--the county clerks, the county officials, the state 
officials, those are the people that should make it easier for 
people to vote. We shouldn't have to put the burden on the 
voters at the grass root--grass root level to provide identity 
so they can vote. So that's one of the things that I just 
wanted to say.
    But we're willing to work with whomever on these issues.
    Thank you.
    The Chairman. Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.115
    
    [GRAPHIC] [TIFF OMITTED] T0169A.116
    
    The Chairman. Ms. Hensley.

   STATEMENT OF JENNIFER HENSLEY, LEGAL RIGHTS ADVOCATE, NEW 
                 MEXICO PROTECTION AND ADVOCACY

    Ms. Hensley. Good morning. Thank you for allowing me to 
testify.
    My name is Jennifer Hensley. I'm a legal rights advocate 
for New Mexico Protection and Advocacy. New Mexico Protection 
and Advocacy, it was founded in New Mexico in 1979. We are a 
private non-profit agency that works with--to expand, promote 
and protect the legal rights of individuals with disabilities.
    My testimony this morning is based on our 26 years of 
working with thousands of individuals with disabilities and 
most recently, over the last few years, after the Help America 
Vote Act. We believe that people with disabilities will be 
greatly impacted by having to prove citizenship and by having 
to provide photo ID.
    Many people with disabilities have lived in residential 
placements and do not have access to those type of documents. 
They may not have obtained them from a family member or may not 
know how to go about getting those documents.
    A passport costs about $100, and you must figure out how to 
navigate the system, and it takes a while to apply for those 
and to receive those.
    A photo ID costs $10--a birth certificate costs $10 in New 
Mexico. However, if you weren't born in New Mexico, you have to 
apply in another state and pay those fees, and you have to 
figure out how to navigate that system, which many people with 
disabilities can't do that.
    We receive funding from the Administration on Developmental 
Disabilities under the Department of Health to promote people 
with disabilities participating in the electoral--in the 
electoral process. We encourage Congress to remember that 
people with disabilities already face barriers to voting, such 
as inaccessible polling places, inaccessible voting machines, 
lack of access to transportation. We believe that these 
provisions would cause significant hardships to individuals 
that live on fixed incomes.
    We also believe that imposing such a process that requires 
people to pay a fee to vote is tantamount to a poll tax, which 
our American--our modern society has rejected.
    We also encourage the committee to remember that not all 
people live like congressmen--congress people and our friends 
or our neighbors; that while some of us may have driver's 
licenses and a few may have passports, lack of those documents 
should not--should not prevent people from being able to vote.
    All Americans have the right to vote and want to do so. We 
encourage the Congress to not put barriers, to remove the 
barriers.
    Again, please remember that all Americans have the right to 
vote, regardless of the circumstances that they live in, and 
imposing such a process will leave these people behind and 
again create barriers.
    Again, thank you for allowing me to testify this morning. 
And welcome to Las Cruces.
    The Chairman. Thank you very much for your testimony.
    [The statement of Ms. Hensley follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.117
    
    [GRAPHIC] [TIFF OMITTED] T0169A.118
    
    [GRAPHIC] [TIFF OMITTED] T0169A.119
    
    The Chairman. And I certainly agree with your concerns 
about anyone with any disability being able to vote, and that's 
why in the Help America Vote Act, we specifically made 
provision that every state and every locality has to provide 
access for anyone with any disability. That doesn't solve all 
the problems, but it solves part of them.
    Thank you all for your testimony. It was excellent. And I 
really appreciate it. It gave me some new insight into it.
    I have one question, just a quick question right off. Ms. 
Walker, you referred to this and also Ms. Hensley, the 
difficulty of getting a photo ID or the expense. In Michigan--
and I thought most states did this now--you can get a photo ID 
from the Secretary of State, even if you don't get a driver's 
license. You just go down there and get it. I'm not even sure 
there is a fee. For a while there was a $1 fee. I'm not sure 
it's anything now.
    Do they have anything equivalent to that in New Mexico, 
that you just go down to the driver's license agency and get 
your picture taken and get a photo ID?
    Ms. Hensley. You must pay for it.
    The Chairman. Yes, Ms. Walker.
    Ms. Walker. I'm sorry. If I may.
    From the--from the perspective of getting a photo ID, I 
wonder how you are dealing with the issue of fraud, becauseif 
you go and just get a photograph and put Jane Doe's name next to that 
photograph, how does that establish that Jane Doe is indeed the person 
in that picture. I just don't really see--if we are dealing with the 
fundamental issue of establishing identity, that doesn't cut it.
    And in addition to that, in the--let's take the laser visa, 
border crossing card perspective in immigration. That's what we 
have--a vast majority of Mexican nationals coming across to 
visit family, shop, have in order to enter the United States. 
But if there's a problem--and they try to secure the document 
by tying a fingerprint to that card. And at least that's what 
you have with that laser visa.
    Unfortunately, Congress has not seen fit nor has industry 
seemed to be able to accomplish utilizing the biometrics 
scanning capacity of that card. But it was a good effort.
    So what I'm concerned about for the disabled, just making 
it down to the store to even get the photo ID is a big deal. 
And somehow, someone has to think it all through.
    The Chairman. I recognize that.
    Ms. Walker. Yes, sir.
    The Chairman. And I'm sure there are ways to deal with 
that, too. We do it in Michigan.
    I want to ask some things specific to New Mexico. There is 
some litigation that occurred here before the 2004 election. It 
required first-time voters who registered by mail to produce 
some sort of ID before voting. The intent was to ensure 
registrants who did not register in person with an election 
official would have to produce some ID before voting.
    The Secretary of State, as I understand it, interpreted 
this to not apply to first-time registrants whose registration 
forms were hand-delivered instead of being mailed. So for those 
527 groups that were doing these registration drives--and you 
have testified, I believe. Ms. Perea singled out that as one of 
the problems--if they mailed the forms in, an ID would have 
been required. If they hand-delivered them, no ID required. And 
a court has sustained the approach.
    Is that policy still in effect at this time, or has this 
been resolved? I just want to get up to date on this issue.
    Perhaps, Mr. Bryant, since you are an attorney, maybe you 
can clarify that.
    Mr. Bryant. Mr. Chairman, the issue stands exactly as you 
framed it today, just like it was in 2004. And some form of ID 
was required for mail-in but not for walk-in registrations. In 
fact, it got to the point where one or more individuals could 
bring in stacks of several hundred registrations all at once, 
and because they were hand-delivered, they were simply dropped 
on the counter and into the clerk's office they went for 
processing.
    The Chairman. Any other comments on that? Anyone else.
    Mr. Bryant. Can I address the photo ID and DMV issue for 
just a moment.
    The Chairman. Yes, you may.
    Mr. Bryant. There is a process in New Mexico for obtaining 
a photo ID through the local DMV offices. Historically, it was 
quite a problem, but in more recent years, the department has 
opened storefront locations, desk-type or kiosk-type locations 
in shopping areas. There is an identification requirement and a 
proof-of-age requirement in the statute for that photo ID, 
because if you are under 21 in New Mexico, your photo is taken 
on a profile and that way somebody who serves alcohol knows 
immediately, by seeing a profile photograph, that you are not 
old enough to buy alcohol, and then full-face photos for people 
over 21.
    And so certain aspects of Ms. Walker's concerns about 
verifying the ID are, in fact, addressed in the process. 
Although I'm not trying to assert that it's perfect or that it 
is easy enough so that every single person can do that. It has 
been streamlined, and the system has been improved 
dramatically, especially in the last several years.
    The Chairman. Is there a charge for those?
    Mr. Bryant. There is a small fee in New Mexico for those 
photo IDs, yes, sir.
    Ms. Perea. May I----
    The Chairman. Ms. Perea.
    Ms. Perea. Mr. Chairman, thank you.
    Addressing that issue specifically to the municipality of 
Albuquerque, in the last election, there was a requirement for 
a photo ID, and that was provided for free to anybody that 
didn't have one.
    The Chairman. Okay. Thank you very much. My time has 
expired.
    I am pleased to recognize Ms. Lofgren from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    This has been interesting. And I guess we all bring our own 
personal experiences to whatever we do. And I've been in 
Congress now for 11 and a half years, but before that I was on 
the Board of Supervisors in Santa Clara County, which runs all 
the elections.
    And listening to your testimony, particularly Ms. Perea, it 
occurs to me that obviously we need to protect the right to 
vote. But we are here in a hospital, actually. The first thing 
the doctors know is that first you do no harm. That's the 
mission.
    And it sounds to me that there is a need for purging of the 
rolls of dead wood. And that's something that when I was in 
local government, we did periodically because people die, they 
move, and you had positive. And so you certainly don't want to 
put a photo ID requirement that will disenfranchise 400,000 
Navajo Americans, when the county government could just purge 
the rolls. I mean, you want to make sure that first we do no 
harm.
    I'll just give a suggestion, for what it's worth, as well, 
in California, the election officials--not that we're so 
perfect. But there, it's completely non-party--it's more than 
non-partisan, it's civil service. All the election officials 
are not--I mean, they're not--most of them are voter registered 
``decline to state'' because they don't want any suspicion. But 
for example, the registrar on voters in our county is a civil 
servant. And so the elected officials and the parties have 
absolutely nothing to do with it.
    And I think there's never been an instance such as you've 
described where, you know, people grab the ballot boxes with 
bolt cutters. And I would note that a photo ID would not have 
anything to do with the bolt cutters.
    I just want suggest that for people to think about later, 
my comment here today, because it served us, I think, pretty 
well.
    I would like to follow up, Ms. Walker, because your time 
ran out. And it's something, before I was in county government, 
I was an immigration lawyer and I used to teach immigration 
law. And my experience in that is--is and really as a member of 
the Immigration Subcommittee and the JudiciaryCommittee, is 
that people who come here illegally primarily come here to get a job, I 
mean, for money. They don't--they're not sneaking across the border to 
vote. I mean, they're sneaking across the border for money.
    [Applause.]
    Ms. Lofgren. There will be no clapping allowed.
    And for people--it's very tough to get your legal permanent 
residence. There's a lot of paperwork and time involved and the 
like.
    And at least, in my experience, you would never jeopardize 
the years it would take to get your legal permanent residence, 
I mean, to vote. I mean, if you knew that you could be 
deported, permanently barred from the United States, and also 
could serve five years in prison, you wouldn't want to do that 
to vote.
    Can you address the legal issues relative--I mean, has that 
been in your experience, or am I just unique in that?
    Ms. Walker. The only way I can think of a legal permanent 
resident, who in some cases has waited more than 15 years to 
acquire that status, depending upon what country or nationality 
and visa availability, no one, after waiting that long, is 
hoping to be forced to return to their home country. And I 
think there is a fundamental problem, even within the U.S. 
public, of thinking that citizenship is somehow the same as 
legal permanent residence and legal permanent residents being 
given documentation, to say, ``Go ahead and--you know, here's 
the voting information.'' And people do not appreciate that 
you're basically handing them a death warrant when you give 
that general pleasant information to them.
    So I think an educational memoranda could be easily 
provided at time of voter registration to try to allay that 
problem.
    Ms. Lofgren. I'd like to just follow up with Mr. Yazzi. 
Your description of your home was something. Some day I would 
like to visit. I mean, I've never really been to such a place. 
It sounds so remote and so rural.
    I'm thinking, as we talked about, you know, marching down 
to the DMV to get a photo ID, how feasible would that be from 
your home in Navajo land?
    Mr. Yazzi. Thank you for your question.
    The border towns that surround the reservations are quite a 
distance away. I'm lucky, I live like 15 minutes from Gallup, 
New Mexico. But we have remote locations that are maybe 100, 
150 miles from the nearest--the nearest town, such as 
Farmington or Gallup or, in Arizona, like Flagstaff. It takes 
quite an undertaking.
    And then, with all the requirements, which is why we 
don't--a lot of our Navajos do not--some of them have never 
even driven vehicles. Our elderly people have never had IDs.
    And it's not--you know, a lot of people may think that we 
probably need it. But when you talk to our elderly people, when 
you talk to the rural Navajos, they're satisfied with where 
they're at. They're satisfied with the way they live.
    And voting, in the Navajo Nation, we treat it like a 
celebration. We changed our Navajo Nation general election to 
coincide with the national election, and our tribe gives our 
employees the day off to go vote. And they treat it like a--
they treat it like a holiday. That's where people gather to 
talk. They campaign. We do--you don't see anyone slinging over 
there. You see all these food camps where people go to eat. 
They catch up on their lives from last year or whatever. But it 
is treated like a celebration.
    And--but the ideas of the IDs, I don't think a lot of our 
Navajos, they're not used to that.
    As a matter of fact, I was just--I e-mailed one of your 
staff members. Native Americans believe--generally believe that 
if you take a picture of somebody, you take their soul and 
their spirit. You take that away from them, part of it. That's 
why they don't like to take pictures as well.
    The Chairman. The gentlewoman's time has expired.
    Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Just a quick comment on Mr. Yazzi's last statement about 
the belief that taking a picture of someone takes their soul 
and spirit away. Hollywood gives a great credence to that very 
thing. Probably no group is more photographed than Hollywood.
    Ms. Hensley, I appreciate your advocacy for the 
handicapped. We--my brother is handicapped and actually sits on 
the Nationwide Handicap Access Board. So it's an issue that I'm 
very engaged in and have national hearings on access into 
national parks.
    If--and you present some credible objections here, but they 
all appear to be solvable. If we cure the problem of the cost, 
if we cure the problem of navigating--and keep in mind, we just 
signed up 27 million people nationwide, or more, in a very 
complex Medicare plan. And so we have shown the ability to work 
complex things through very large groups of people.
    If we solve those problems, would you find objection then 
to photo ID for--and the way it would affect the handicapped?
    Ms. Hensley. The main thing--we're talking about access.
    Mr. Pearce. Talking about the ID.
    Ms. Hensley. If we solve those problems, possibly.
    Mr. Pearce. Because we're here--in Washington, we get a 
sense across the board and we may disenfranchise a few.
    Ms. Perea had a stunning presentation on the documentation 
of the fraud and the articles in the last election. New Mexico 
did not certify the election for 23 days after the election was 
over. People from New Mexico were calling me every day. This is 
a public and national embarrassment for our state.
    I personally know, because I was writing down my figures as 
well as President Bush's, on election day, he was ahead by 
31,000. That margin dropped by 26,000 votes, down to 5,000.
    In your view, Ms. Perea, would you think that the 
provisional votes were falling that much in favor of Mr. Kerry? 
Do you think that there were problems in those 23 days that we 
failed to certify.
    Ms. Perea. Mr. Chairman and Representative Pearce, I just--
I just feel we had so many problems across the board on how we 
were receiving those votes and certainly on the provisional 
ballots, that we didn't have the clear instructions. And not 
having consistent instructions throughout the 33 counties 
within the state of New Mexico caused an even greater problem.
    Mr. Pearce. Thank you.
    Now, Mr. Bryant, in my opening statement, I talked about 
the county clerk from this county who was indicted and 
eventually convicted of voter violations. Was the state 
secretary--the Secretary of State or the director ofelections 
involved in the bringing forth of that case.
    Mr. Bryant. No, sir. It was--that was handled locally by 
the district attorney's office in Dona Ana County.
    Mr. Pearce. And when invited, did the Secretary of State 
and Elections Bureau ever become involved.
    Mr. Bryant. No, sir. They did not.
    Mr. Pearce. Mr. Chairman, these are things that I know 
personally and I bring up--and I appreciate you coming to this 
particular location, because Ms. Perea's testimony and Mr. 
Bryant's testimony and Ms. Justine Fox's testimony all tell us 
the same thing.
    Mr. Bryant, one of the ways here in this state that an 
election fraud occurs is that on election day, you have your 
poll worker signing people in like--say, at a table like this. 
And sometimes someone would come in and look over the shoulder 
and find a blank line, and magically, that person's the next 
one at the door. It just works over and over in that way. And 
it was against the law. And so people began to bring up the 
fact that this is occurring.
    Now, in the last--in two legislative sessions ago, I think 
the legislature changed the law to where it is now legal to 
come in the door, look over the shoulder and see blank lines. 
Is that a piece of legislation that was passed by the state 
legislature and signed by the governor?
    Mr. Bryant. Yes, sir. It is legal.
    Mr. Pearce. It is legal now for a worker to come in, look 
over the shoulder, find blank lines, and then, without any 
identification, we have potential problems existing.
    Mr. Bryant. And what they are supposed to be doing is 
looking for their name in the roster. But you can see that for 
the voter that intends to commit fraud, it's a wide-open door.
    And isn't it incredible that things--something as simple as 
a photo ID would absolutely slam the door on 100 percent of 
that.
    Mr. Pearce. Now, how many voters--how many voters would not 
know that they had already voted.
    Ms. Justine Fox, were you there when that--that bill was 
passed? What was the conversation that--how many voters were 
documented in the hearings at the state legislature of people 
who didn't know they had voted on that particular day? It's 
just stunning.
    Ms. Fox-Young. Mr. Chairman.
    As is typical, there were no voters who weren't aware that 
they voted.
    Mr. Pearce. Okay.
    Ms. Fox-Young. But that's a conversation we often have in 
Santa Fe.
    Mr. Pearce. Thank you, Mr. Chairman. I know my time's about 
gone. I'll have a second round, if we have them.
    The Chairman. Thank you very much.
    First of all, I would like to pick up on a comment that was 
made by my colleague from California. I don't think anyone 
believes that illegal immigrants come here to vote, and I 
suspect that very few of them would even attempt to vote 
illegally if they knew the penalties.
    My concern, and what is emerging to me from this hearing is 
not the individuals who do things like that but organizations 
that are trying in some way or another to subvert an election.
    That, incidentally, is my experience across the country in 
various places where I have been. It's usually not individuals 
doing something. Although, there was the case of the gentleman 
in Tennessee who registered his dog and always voted once for 
himself and once for his dog. They knew about it and they 
tolerated it. But when he proceeded to register himself and his 
dog in three different precincts, that was a bit too much, and 
so he got in trouble.
    But by and large, it's organized efforts that I'm concerned 
about. We have Tammany Hall, we have the Pendergrast Machine, 
et cetera. That's the issue.
    And my concern, in relationship to the illegal immigrants, 
is that organizations may be using them in a way that could 
really endanger their status in this country. And so if 
organizations are, in fact, deliberately looking for people to 
vote and deliberately or inadvertently registering illegal 
immigrants, they're really endangering these folks by having 
them vote.
    So I think that's something we have to bear in mind as we 
try to straighten this out.
    Relating again, to the state and the federal government, 
Representative Fox-Young, you referenced the federal databases 
that exist that have information on immigrant status. But you 
also indicated that local election officials have trouble 
accessing this information.
    And I wanted to ask Mr. Bryant, since you have a great deal 
of experience at the county level, are they experiencing that 
problem as well, that they are not able to get the information 
from the federal government that would help them identify who 
was legally allowed to vote and who was not?
    Mr. Bryant. Yes, sir, they are. But in addition to that, 
the way the system is set up here in New Mexico, they are, in 
effect, prohibited from being able to go beyond the voter's 
assertion that that's me on the voter roll, as I look at the 
blank line and offer to vote.
    The way the system is designed here, each party can have a 
watcher and challenger at the polling place who can say, ``I 
challenge that voter.'' When they do that, the precinct 
officials still don't get to ask for a photo ID, but they get 
together and they vote amongst themselves, the precinct 
officials, ``Do we let this person vote or do we not?'' If the 
person is, yes, that person votes and the matter is over, and 
there is no way to review that. If they say no, then the person 
is allowed to vote on a paper ballot, and that ballot is put in 
the ballot box for handling during the canvass.
    We have a statement from a watcher in a precinct down in 
Anthony, New Mexico, in the 2004 election, using this process: 
He saw a van pull up out in front of a polling place, and a 
number of people climbed out of the van. He went around, and he 
looked at the license plate on the van, and it was Chihuahua, 
Mexico. And a bunch of individuals jumped out of the van, and 
they went in the polling place, they found their blank lines 
and they voted. And there was no effective way for him to do 
his job. Again, a simple photo ID would have stopped all of 
that from occurring.
    It's an incredibly simple first step in the process of 
trying to get some confidence and some vitality, especially 
here in New Mexico.
    The Chairman. Representative Fox-Young, do you have a 
comment?
    Ms. Fox-Young. Thank you, Mr. Chairman.
    If you back up a moment into the registration process and 
look at those databases and how they might be relevant there, 
you have the same problem. The burden lies on thevoter 
throughout the registration process in New Mexico.
    But we have databases here that could be useful. We have 
Homeland Security has--and ICE have databases of folks who have 
overstayed their time in the country. New Mexico Motor Vehicle 
Department has databases of individuals who have applied for 
and brought in documents to obtain driver's licenses. But there 
is no mechanism for our election officials to use those and to 
verify.
    And I think your point that we are looking at a huge 
problem with the incentives that 527s have to generate, you 
know, higher and higher registration numbers and get folks to 
polls, a very vulnerable population, and there is no check. We 
have the means to do it, but we have no statutory authority to 
do it.
    The Chairman. One last question. The Real ID Act, which 
Congress passed, which would solve much of the ID problem, we 
hope. But it goes into effect in 2008 and will impose new 
requirements of those seeking ID.
    Has New Mexico begun to implement this law?
    Ms. Fox-Young. Mr. Chairman, if I may.
    New Mexico has begun to discuss it. Certainly, in interim 
committee meetings this summer, we already are. The Revenue 
Stabilization Tax Committee discussed it last week, in fact, 
and has started to put--put things into place. But there has 
been no substantive movement that I know of, in terms of 
implementing it.
    The Chairman. All right. Thank you. My time has expired.
    I'm pleased to recognize the gentlewoman from California, 
Ms. Lofgren.
    And I'll hand the gavel to you.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I--listening to this, and we had actually tried to get a 
representative from AARP, but our logistics didn't work. But at 
our last hearing, this is what the AARP said to the House 
Administration Committee.
    They said, ``New state laws in implementing rules will 
significantly limit opportunities to register and/or vote. Many 
persons who are qualified to vote but do not have ready access 
to documents, such birth certificates, driver's licenses and 
passports, that have never been deemed necessary in the past, 
may lose the fundamental right to vote.''
    And as I looked into this whole ID testimony about photo 
IDs, I think there is an assumption that sometimes--and we need 
to guard against, that everybody is in the same situation as I 
am, and it's not the case. I think about my dad, who was a 
truck driver, he never had a passport, and actually less than 
20 percent of Americans have passports.
    Or I think about nursing home residents. I mean, in the 
study in Wisconsin, 5 percent or less of nursing home residents 
had a photo ID. And obviously, if you're in a nursing home, you 
can't go down to the DMV and get even a free photo ID.
    So I think we need to--and my colleague, Mr. Pearce, 
mentioned the Medicaid situation. And I think actually that's 
instructive, because we put in the Budget Deficit Reduction Act 
a proof of citizenship requirement to receive Medicaid. And 
what we found out, in the hospitals and the nursing homes and 
the like, basically said there are individuals who are 
Americans who can't--they can't prove it, but they are 
Americans. They've worked there all their lives. They've paid 
their taxes. And now they're in a nursing home. Some of the 
examples of people who are very elderly, who--they were born at 
home and didn't have a birth certificate, or they had moved 
many times and they couldn't--they didn't have their documents 
with them. And yet, you know, they are the Americans, and you 
can't.
    And if you can't produce a document to save your life, 
which is basically what we are talking about for Medicaid, I 
think, you know, certainly that's a more important thing to 
most Americans than voting. As precious as voting is, living is 
even more precious than voting.
    So I think the fact that we had to actually relieve that 
requirement for the Medicaid system is quite instructive.
    You know, I wanted to talk to you, Ms. Hensley, on some of 
the issues faced by the disabled community. And obviously, if 
you don't see, you don't have a driver's license. If--mobility 
may not be impaired but it's certainly more difficult if you 
can't pop in your car.
    So even if there were a reduction in fees or the like, 
how--speaking for yourself and also for others who--who are 
disabled, how easy would it be to go and get these ID cards?
    Ms. Hensley. Not easy at all. As you say, most people have 
driver's licenses but not everybody. And just access, the fact 
of getting down there for people with disabilities. And in New 
Mexico, we have a very rural community, where 90 percent of 
people with disabilities don't have access to transportation. 
And so it would be very difficult and add another barrier 
amongst all the other ones that we face regularly.
    Ms. Lofgren. Someone said--I don't remember who--that a 
large percentage of voters approve these photo ID items.
    But I always carry a copy of the U.S. Constitution with me 
on my person, and when things get slow, I read through it. And 
the Fourteenth Amendment is really an important one, because it 
says that no state shall make or enforce any law which shall 
abridge the privileges or immunities of citizens of the United 
States or which shall deprive any person of life, liberty or 
property without due process of law and/or deny to any person 
within its jurisdiction equal protection of the laws. And of 
course, Article Fifteen provides the rights of citizens of the 
United States shall not be denied or abridged.
    Now, it seems to me--and I would appreciate comment from 
any of the members--that if those who cannot produce proof of 
citizenship are disproportionately poor, rural, elderly or 
disabled, and there are other remedies, for example, 
challenging and having provisional ballots if one suspects 
fraud, purging the rolls, how could this voter ID measure meet 
the requirements?
    Before--maybe I should direct that to the two lawyers on 
the panel.
    Ms. Walker. If I may, in the lawsuit that is currently 
pending regarding Proposition 200, that indeed is one of the 
arguments of the ACLU and others bringing that action. And 
fundamentally, I think you--it is the phrase, You're using a 
bazooka to deal with something versus the appropriate measure 
that might actually deal with remedying the situation. I don't 
see how you can avoid violating the Fourteenth Amendment in 
those circumstances.
    Ms. Lofgren. Mr. Bryant, you may disagree.
    Mr. Bryant. If we have two lawyers on the panel, there is 
liable to be a disagreement.
    My approach is actually quite the opposite, Representative 
Lofgren. What we have in New Mexico is, wehave an existing 
abridgement of the right to vote for a vast number of voters here by 
the current statutory scheme that exists and the lack of ability to 
guarantee that we know that the voter who is voting is the voter that 
is supposed to be voting.
    I've got a letter from Lois Hart with me today about her 
mother who is elderly and disabled. The last time her mother 
was able to vote was in 1996, and she voted absentee because of 
her health. Since then, she's been too ill to vote. But the 
poll books in Dona Ana County reflect that Vada Hart has voted 
in a number of elections since then. And Lois knows it's not 
her mother. She cares for her at home. And Lois writes, ``This 
can only mean that someone is stealing her name and casting her 
vote.''
    And we have allowed a system to develop, a problem to exist 
that is abridging Vada Hart's right to vote, it's stealing her 
right to vote, and it's criminally negligent in New Mexico to 
continue to do that.
    Ms. Lofgren. If I may, Mr. Bryant, the issue--the question 
really is whether this lady--and obviously, it's an important 
issue that she raises--whether the remedy is to disenfranchise 
450,000 Navajos that Mr. Yazzi is here to represent.
    Mr. Bryant. And if that were really the result, I would 
give you a resounding no. But it isn't the result, and it 
doesn't have to be the result.
    What we have to do is, we have to balance the interests of 
the integrity of the electoral process here in New Mexico with 
the interest of Mr. Yazzi and the Navajos, New Mexico's 
Hispanics, our--our entire population.
    In the salute to our flag, we call ourselves United 
Cultures, and we indeed are here.
    And I believe absolutely that we can put in place a 
legitimate, viable voter ID program that includes a photograph 
so that when I go to the poll, they know it's Dan Bryant that 
is offering to vote, and do that in a way that does not 
infringe on our Navajos.
    Ms. Lofgren. I'm about to run out of time. But I'll just 
say this: I think that we could do that in this circumstance. 
If, as a matter of policy, the federal government fingerprints 
every baby and every person in the United States. Goes out to 
every corner of the country, fingerprints every Native 
American, fingerprints every nursing home resident and makes 
sure that there is no exception, that we have biometrics on 
every person born and who has already resided in the U.S., then 
you could do that positive ID.
    But I don't--I don't see that that's what we are going to 
do, number two. And I also don't think--I mean, I'm not 
recommending it. But I don't hear from my constituents in 
California that that's something they think is a good idea. I 
mean, they feel that is intrusive, from a private point of 
view. But there could be a nationwide debate on that point.
    Because I--well, I guess my time is over, Mr. Chairman. 
Thank you for allowing me.
    The Chairman. Thank you. There will be a third round, and 
you can continue the speech.
    Congressman Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Yazzi, I grew up in a very rural part of New Mexico and 
am familiar with having to give directions to turn right at 
this sign post, go five miles, and then I'm on the second or 
third house on the right, depending on which way you count. And 
so I'm very familiar.
    But I am aware that the enhanced 911 system has established 
streets and house numbers so that the place that I lived that 
never had an actual street or number now has one, and so I 
don't know if they've worked their way through your 
neighborhood yet, but I suspect they are on the way. Because 
what the idea is, is that we can GPS coordinate every 911 call 
so that police can respond immediately, no matter where it is. 
And that's a right of all Americans.
    And so one of the problems that we face in registering and 
identifying people that you mentioned as a problem would 
certainly be well within solution.
    Mr. Bryant, you heard the suggestion that one of the 
beginning points is simply the purging of the rolls. Have you 
been involved in any purging of rolls with counties, or are you 
familiar with counties that have attempted to purge the rolls 
here? Give us a little bit of an idea of what the circumstances 
are when you purge the rolls here in this state.
    Mr. Bryant. Historically, the purge program was run after 
every biennial election, and it was based on voter activity at 
the polls. With the adoption of HAVA, the ability of county 
clerks in New Mexico to purge voter lists was significantly 
altered and reduced. As a result of that, in terms of purging, 
we are in significant trouble in New Mexico.
    And I can share an example for you right here in Dona Ana 
County. Mr. Walker, in doing some work for us, he went and took 
a look at some of the areas here in the city of Las Cruces, 
because we have lots of apartment complexes because we're a 
college town. And so we took 19 apartment complexes and we 
cross-referenced the voter registrations for those complexes. 
Then we went to the complexes and we asked for lists of current 
voters. Thirteen out of 19 complexes responded. And out of 
those 13, we had a total of 1,000 registered voters. Six 
hundred and sixty of them no longer lived at those addresses.
    Now--and I heard the murmuring behind me. I was staggered 
when Mr. Walker produced those numbers for me.
    So the reason I keep saying photo voter ID is an important 
first--a critical first step is because there are a number of 
things that need to occur to create true integrity and 
verifiability here in New Mexico. But I just believe that it is 
a critical first step. There are other things that need to be 
done and other pieces of the puzzle we need to fix.
    Mr. Pearce. Thank you.
    Ms. Perea, you had--you have by far the most documentation 
in the hearing today.
    Now, did I hear you say that you had complaints and you 
have documentation from both Democrats and Republicans? In 
other words, this is not a partisan issue, or is it a partisan 
issue?
    Ms. Perea. Mr. Chairman and Representative Pearce, it is by 
no means a partisan. It's a citizen issue. It's a concern of 
our governor. It's a concern of Senator Domenici. We have 
quotes up and down on the various individuals that want to do 
something about the problems that we have in New Mexico.
    Mr. Pearce. So you basically find that all people, 
regardless of registration, say, ``Just give us a fair 
election, and we, as citizens, will live with the results.But 
give us a fair election.'' Is that a fair summary of----
    Ms. Perea. Fair, timely. The timeliness of our elections is 
critical in the state of New Mexico. Making sure that we have 
all the administrative checks and balances in place, yes.
    Mr. Pearce. Okay. Ms. Walker, right at the end of the first 
questioning by Mr. Ehlers, you had made a comment, something 
about the education. I was being distracted at the moment and 
did not get that fully.
    Could you repeat, if you remember, what you were saying 
about the way that we could combat this with education of our--
of the people who are coming into the country?
    Ms. Walker. Well, I think it's not necessarily, well, 
registration of just people coming into the country, but it's 
when you look at a government official. If you come up to a 
municipality or to a city, and the officer, after you 
registered for selective service, gives you also a voter 
registration card, and you're thinking, This must a good thing, 
I'll go ahead and do it. There are few people that are aware of 
these provisions in Title 18, who are here legally--legal 
permanent residents, and don't recognize that this severe 
consequence will obtain if they go ahead and send that card in, 
just that simple act.
    So I think providing that information at the time of 
registration would help.
    Mr. Pearce. Would be--you would declare that to be the 
first significant step, that is, when they come into the 
nation, just give them some information that this is a fairly 
serious deal. All Americans take the right----
    Ms. Walker. Right. And then, also, I think that you would 
buttress that by educating voter registration organizations, 
that when they are running out there to try to get the vote----
    Mr. Pearce. You bet.
    Ms. Walker [continuing]. That they provide that information 
as well.
    Mr. Pearce. And I appreciate that.
    And again, I think it's the Chairman that mentioned--that 
someone has mentioned that we are trying to balance all 
concerns, because again we don't come into these things as a 
partisan issue. Everybody is representing concerns from their 
eyes and their viewpoint, and that's what the process is all 
about.
    And just in the last piece of my time, Mr. Chairman, I 
don't know who would be best to answer, but what do you find, 
as far as information presented to the people who are coming 
into the country? Do they get any information, Mr. Bryant or 
Ms. Perea, Justine Fox-Young, that helps them understand the 
sanctity of this voting process? And do they get information at 
the time they register?
    Mr. Bryant. Representative Pearce, the answer to that is 
no, and the answer is quite the opposite. In many instances, 
they are encouraged by organizations to go ahead and register 
to vote.
    The point that I would make, with respect to that segment 
of the issue is this: In New Mexico, because of the way the 
process works, they are virtually guaranteed that if they do 
vote, if they do register and they do vote, they will never get 
caught, because there is absolutely no way for me to prove 
after the fact that it was, in fact, that person who voted and 
signed on that line at the poll that day. There's no mechanism 
in place that would allow that to happen.
    And so I don't see the penalties as ever being able to 
effectively attach, at least not here in New Mexico.
    Mr. Pearce. Thank you, Mr. Chairman.
    As I yield back, I would just recommend that you listen 
closely to Ms. Walker's suggestion. I think that it is a valid 
one, and provision of information would certainly be a very 
good step, also.
    And just--we are all trying to work our way through a very 
tight, thorny little issue, and it has a lot to do with the 
confidence of American people in our system, and I think it's 
well worth the effort.
    But I yield back to you.
    The Chairman. And I thank you.
    We'll begin our third round of questions, and I'll follow 
up basically on the same lines you raised in terms of giving 
information.
    Several of you have raised the issue about 527 groups 
registering voters. I presume they are not the only ones 
registering voters. At least in my home state, the Republicans 
go out and try to register. The Democrats try to register. And 
a particular candidate may want to increase the registration in 
a certain area. There are some rules about educating those 
people who are registering voters.
    Are there rules governing that in this state? When you 
complain about the 527 groups, are these groups actually 
informing, as Ms. Walker said they should, making sure that 
they register people who are citizens, or do they just take any 
name they can get?
    Do they have to undergo any training of any sort from the 
local city clerk or county clerk? And are they allowed to be 
paid based on the number of registrations they get?
    Ms. Fox-Young.
    Ms. Fox-Young. Sure. Mr. Chairman, we did make one 
significant step in the last session in terms of regulating 
527s, so to speak, or any--any registering agents. This state 
used to function, I think, like a lot of states, where you had 
deputy registrars who had to register--provide personal 
information with the local authorities or the state before 
doing so, and we had gotten away from that.
    Now that we see so much soft money coming into all the 
states, particularly the swing states, I think it is still true 
that the parties engage in significant registration drives and 
individual candidates do. But the bulk of registrations are 
coming from the 527 groups because that's where the money is.
    So we--we did pass a law in the last session requiring--as 
part of this election reform bill, requiring 527 agents to 
register with the Secretary of State. They do not need to 
undergo any training. They do still pay their agents, and it is 
still an unbiased process.
    And I think as long as you have those incentives there and 
as long as there are people who want to invest in swing states 
and get the numbers up, you will continue to see these 
problems. Although, I think we will be better off now that we 
know who is doing particular registrations.
    But if you look at, for instance, some of the registration 
cards that I brought in, there is a line--and this was part of 
the litigation that you brought up over first-time registrants 
and the HAVA requirement. The court did uphold the Secretary of 
State's interpretation of that law, as you said.
    But anyway, through that litigation, it was impossible for 
anybody to determine who had actually turned in aregistration 
card. There was no paper trail back to a particular 527, back to the 
party, back to the candidate, and now there is. And so there is a way, 
if you want to pull all your cards, to go back now and check.
    The Chairman. All right. Thank you.
    Several of you have raised comments and concerns about a 
photo ID, which is something that Mr. Bryant proposed, or some 
other way of ensuring, as my colleague from California 
mentioned, fingerprinting. And we are concerned about the 
difficulty of access for certain groups, the difficulty of 
getting it done, the cost. Some of you referred to a poll tax.
    Let me ask, if either the state or federal government 
provided that service at no cost, if they were able--willing to 
go to the homes of those who could not get out or to the 
reservations of those who didn't have means of transportation, 
would you still have an objection to a photo ID?
    Ms. Walker.
    Ms. Walker. Just a very fervent comment.
    The Chairman. Yes.
    Ms. Walker. My background is in biometrics and border 
security, and I've testified three times on the hill on those 
issues.
    And what bothers me the most, in trying to establish the 
issue of identity in this concept, is that we have just 
finished trashing the whole idea of using a card with a 
simplistic photo on it to establish the identity of an 
individual. The problem is, if it's a fraudulent card and has 
somebody else's photo on it and I adopt the identity of Jane 
Doe, it ties to that particular card at the moment.
    So that's the reason why we went through the effort of 
creating a laser visa document, to put the biometrics so that 
the identity is tied to the body versus tied to a particular 
photo.
    I just wonder at the ability to decrease the current levels 
of fraud regarding those individuals willing to go out there 
and create their own documents, what the percentage is and what 
this really will do regarding the reduction of that type of 
fraud.
    The Chairman. I'm not sure I quite understand. I understand 
everything up to the last little bit.
    Ms. Walker. I'm sorry. I get too wrapped up in this. I 
apologize.
    The Chairman. No, that's fine.
    Ms. Walker. I need to get a life.
    The Chairman. I think there are a number of other people 
wrapped up in that.
    Ms. Walker. But unwrapping myself from a biometrics role 
print for a minute and the whole integration and host of 
dilemmas right now facing the federal government. If I am 
intending to commit voter fraud and I want to adopt the 
identity of the dead person who is still on the rolls, I go get 
the name and I have a photo ID made. Unless you have stringent 
processes in place regarding verification of ID in some manner 
before that document is created, then you've created what we 
call it, as an optical solution. It looks good, but it doesn't 
really achieve the objective. That's all.
    The Chairman. Okay. When you talked about an ``optical 
placebo,'' I assumed you meant that.
    Ms. Walker. Yes, sir.
    The Chairman. Now, in Michigan, when we die, we want to be 
buried in Chicago so we can continue our political involvement 
after death.
    It's the same problem. But there are ways of dealing with 
it. The biometrics is one way, and there are various 
biometrics. And I just met last week with a company that makes 
a card that is very, very difficult to, in any way, reproduce 
or to falsely identify someone.
    So there are solutions, if we would do that.
    Ms. Walker. Right.
    The Chairman. And that is expensive.
    Ms. Walker. Yes, sir. It's just how far up the chain you're 
willing to go.
    The Chairman. Yes. Right. But if we did that, then is your 
objection removed?
    Ms. Walker. If I have an actual card that deals with 
identity documentation, then I don't have an objection that--
it's a good idea to be able to say Joe Blow is indeed Joe Blow. 
But if I'm just creating a card that doesn't really have that 
basis, then, no, it seems to be a wasted effort.
    The Chairman. And that's part of the Real ID cards that I'm 
not really satisfied in that legislation.
    Would anyone else wish to comment on that? Mr. Yazzi.
    Mr. Yazzi. Thank you for giving me time to comment.
    As far as the voter ID, in Arizona, we are dealing with 
Proposition 200, and that was initiated by the voters of 
Arizona.
    The Chairman. Right.
    Mr. Yazzi. And our Navajo Nation is starting to feel the 
drastic effects of Proposition 200 immediately, because if a 
Navajo doesn't provide the proper voter identification, they 
are going to get a provisional ballot, and they're going to be 
asked to provide the proper ID within a certain amount of days. 
And with the county offices being so far from the rural area of 
the Navajo Nation, they are not going to want to go back to the 
county offices within five days to provide the proper ID for 
one vote.
    That's where the issues that are on the ballot, the people 
that are on the ballot that they voted for, their votes are not 
going to count for that particular election. And we are talking 
about November--September's Arizona primary. November's their 
general election.
    The Chairman. Right.
    Mr. Yazzi. So, you know, it's going to have drastic effects 
immediately.
    And there is other ways that we have been suggesting, like 
only--the only people that can vote is registered voters, 
right? So why can't we provide voter identification when they 
register instead of at the polls? See, those are some of the 
suggestions that we have.
    And one thing that I'm here to say is, whatever way this 
goes, whichever avenue you take, we are willing to work with 
people on this. We are willing to work with the counties, the 
states, the federal. But we just need you guys to recognize 
that Native Americans have an issue with this, with photo 
identification.
    The Chairman. And I totally agree with that. And my point 
is simply that if we are serious about doing it, then we have 
to face the fact that it is going to be expensive, because to 
provide proper registration and identification procedures is 
not cheap.
    And I'm sure, Ms. Walker, you are aware of the cost of 
that, too. I think we all have to recognize that.
    In many cases, it's relatively easy. But part of what we're 
going through is a result of the fact that over the past 
quarter century and maybe half century, this country has become 
exceedingly mobile, and we've ended up--most of us have ended 
up living in larger cities.
    There was no problem when I was a child. The town clerk 
knew everyone in the town personally, and so they didn't need 
ID. The world has changed.
    And those who wish to use nefarious means to influence 
elections are taking advantage of that and trying to work their 
will. And I'm not throwing stones at anyone here, but it 
happens. I've seen it happen.
    And I've seen it happen in senior citizen homes, where 
someone will go in with a sheet of absentee ballots and come 
out with those absentee ballots completed and turn them in.
    I mean, it's everywhere. So it's not as widespread as it 
could be. But I certainly want to make sure we try to stop it 
where we can.
    I would also just want to notice, we will certainly, 
whatever we do, try to avoid the poll tax issue. I don't think 
that's a real problem.
    Yes, Ms. Perea.
    Ms. Perea. Mr. Chairman, on that point, as far as the cost 
was concerned, I would just like to point out that in New 
Mexico, because of the legislative action that we had last 
year, there was a million dollars that was spent to give 
identification cards to the voters of New Mexico, only to be 
told that they didn't need them when they went to the polls 
because they were incorrect and there were many errors.
    And there had been the purging of the numbers of the voters 
in 2005. But there was still 60,000 of those cards that were 
out there that were not valid voter ID cards. And if I may, 
this is a copy of those cards. And yet, we had the Secretary of 
State go up on TV saying, ``Oh, don't worry about it if you 
didn't get it, because you really don't need it to vote.''
    And as long as we have those Band-Aid approaches, we 
continue to spend a million dollars or more on things that are 
not resolving the problem in the state of New Mexico.
    Thank you.
    The Chairman. Thank you.
    My time has more than expired.
    Do you have a question?
    Ms. Lofgren. Yes, Mr. Chairman.
    I think there are a couple of--at least two issues about 
the photo ID. One really is about the ID itself. And it's worth 
noting that it's actually not that hard to get a photo ID, if 
you want one. I mean, the 9/11 terrorists had 63 photo IDs. I 
don't think they had them to vote, but I mean, they were able 
to obtain them. The other issue is, what documents do you need 
in order to get the photo ID?
    In Mr. Hyde's legislation that actually was the subject of 
the hearing on the hill provides for various--well, provides 
for proof--positive proof of U.S. citizenship, which is not 
necessarily always available even for people--especially for 
people who are elderly.
    So I guess the question about current IDs----
    Let me ask you this: Representative Fox-Young, it sounds 
like you have done some--in the legislature, some analysis and 
study of this. One of the Wisconsin studies that I referenced 
earlier, that is part of our record that was inserted from a 
prior hearing, indicated that a small percentage of students 
actually had a driver's license that had their current address 
when they registered in college, as they are free to do, and 
that a substantial number of married women--newly married women 
had driver's licenses with their maiden names, not their 
current names, and that, as I mentioned earlier, a very small 
percentage of nursing home residents actually had driver's 
licenses.
    Did you--did the legislature look at what percentages of, 
for example, students and married women? What the case is here 
in New Mexico?
    Ms. Fox-Young. Representative Lofgren, we--I can't tell you 
offhand what the exact percentages are. I can tell you I have a 
lot of difficulty with my name everywhere I go, and there are 
many variations of it.
    But we did look at issues surrounding Native Americans, 
homeless, students, people whose names have changed, people who 
have moved, and were able to work out--in the final bill, we 
didn't pass all of those exemptions, and I don't think we 
really got an ID bill out that had real teeth. You know, you 
end up with ID; if not ID, then, you know, a written statement; 
if not that, then an oral.
    But we did look at those issues and we found ways around 
all of them. I mean----
    Ms. Lofgren. If I may, one of the witnesses that we had in 
our last--he was just a fabulous--I mentioned him earlier, the 
law professor at George Washington--made a point--and he has a 
book actually out on it that I think is so important--which is 
that we need to legislate based on statistics and analysis 
rather than legislate on anecdotes.
    And because--for every--there should be no voter fraud. 
Nobody is for voter fraud. I mean, that's 100 percent, every 
single person in this room.
    But if you prevent one person from committing voter fraud, 
but in doing so disadvantage 1,000 people from--who are 
Americans from voting, then that's the wrong parameter. I mean, 
that's why we need the statistical analysis.
    Let me ask--I know we are supposed to be out of here at 
11:00.
    Getting to the other issue, which is the documentation to 
get the ID, Mr. Yazzi, how many of the people in Navajo--the 
Navajo Nation have birth certificates that they could provide 
to--as an underlying document to get an ID that would comply 
with Mr. Hyde's bill? Do you know that?
    Mr. Yazzi. Thank you for your question.
    Not right off, but we have--we have people that do not have 
birth certificates. And I'm 45 years old. And even some people 
in their 30s are born at home that don't have birth 
certificates.
    My first son, he's in the United States Navy, he was born 
at home, and he was born in 1982. And we had a problem with not 
getting his birth certificate because they wanted Arizona to 
issue it and Arizona wanted New Mexico to issue it. He was born 
in New Mexico. But we finally were able to get it, but we had a 
problem getting it.
    But there are a lot of people. My mom doesn't have a birth 
certificate at all because she was born at home.
    Ms. Lofgren. Thank you.
    I--you know, although I think we have some disagreements on 
the panel, this actually, I think, has produced some useful--a 
useful piece of information that we might be able to do 
something with, which is--has been referenced before,which is 
about voter education.
    And a lot of people may not realize--and this came out 
actually in the California contest with Mr. Dornan. There were 
seven people who had passed their citizenship test but had not 
yet taken the oath. And they voted because they thought they 
legally could, but they couldn't. They couldn't legally vote 
because they hadn't yet taken the oath. So it wasn't an intent 
to defraud, but it was an education problem.
    If you are in the United States military, if you're in Iraq 
but you're a legal permanent resident, you still can't vote. 
And so we are going to reach out to our--our servicemen 
fighting in Iraq so they can vote. But we need to make sure 
that the servicemen who aren't yet citizens don't--don't vote.
    So a lot of this is information--and I think we can all 
agree that that kind of information would be a helpful thing, 
in addition to the purging. I just note, again, from my--my 
experience in local government what we did and still do.
    And it saves the county money, actually. You would think it 
wouldn't. We sent out postcards and--to the residents and--
periodically. And we do it three times. And if after three 
times, they don't send it back, then we purge it. And we make 
it up in postage, because then you get the people who've moved, 
and it really--it works pretty well for us. So I'll just throw 
it out for what it's worth.
    Thank you, Mr. Chairman, for the opportunity to question.
    The Chairman. Thank you for your comments.
    As a former resident of California, I received those 
communications. And I think California may be one of the few 
states that does that. I personally found it extremely useful 
to get those communications in the mail regarding what was to 
be voted on and so forth. And every state, I would hope, would 
aspire to do that.
    Representative Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Again, appreciate the hearing and appreciate the 
opportunity to be here and be a part of the panel.
    This is not technically an immigration hearing, but there's 
been enough things come up that I would like to--Mr. Chairman, 
you are little bit closer to leadership than I am, a little bit 
closer to the top of the heap than what I am as a second-
termer.
    But if you would remind the House--my concerns with the 
House passed a bill that caused my vote against it. I think, if 
you would remind them that there were three things that were 
problematic, one, holding employers accountable for 
understanding and verifying the documents with which they hire 
people, both Social Security or green cards or whatever. And we 
understand the counterfeits that are available. And as an 
employer, myself, I know that it is very difficult. That was 
problematic.
    The provision of making all illegal immigrants felons was a 
very difficult provision, that actually Chairman Sensenbrenner 
tried to amend out on the floor and had very few Democrat 
supports. I'm not sure if they didn't understand that he was 
trying to--he recognized he had made a mistake and tried to get 
that out of the bill. We had visited with him as the bill went 
to the floor, and so he was trying to get it out.
    And finally, the issue of making people responsible--they 
were trying to get the ``coyotes'' to be penalized and instead 
stated it broadly enough that all people that helped illegals 
would be criminals. And I've got members and people who live in 
this district who want to follow the law very closely, but they 
still tell me--they live on the border, and they tell me they 
set water and food out because that's a human condition, and 
the people coming across the desert often just have been there 
for days, sometimes dragging kids.
    And those three provisions, if you move forward, I would 
appreciate, if we do anything on immigration, if you would 
remind the leadership about those.
    The--I've got a brief thing here, again, to express my 
concern. I've got a breakdown of the elections of 2004 in this 
county. It's not districtwide or it's not statewide. But in 
this county, 922 votes were cast above the number of certified 
signatures.
    On election day, it was a very close vote in this county, 
with the Democrat lead being at 4.8 percent of the early vote. 
It swung a little bit on election day, increased to 8 percent. 
But when we look at the absentee and provisional ballots, 27 
percent of absentee and 37 percent of the provisionals came 
out. So fully, the differential between that and election day 
was very dramatic.
    Again, if you looked at other voting patterns on that 
election day, if you looked at the nine propositions, actually 
the vote was very close. If you didn't find the absentee 
provisional ballots to swing that hard one way or the other.
    On election day, for the President--the President--
President Bush actually was a little bit ahead in the early 
vote by 44 votes. He was a little behind on election day by 
404. But when the absentees were counted up, President Bush 
lost 2,043 votes here, in the absentee. Again, the 
differentials--the spread on election day with the present 
voting and the early vote was very, very nominal. But we see a 
27.5 percent spread on the absentees.
    Same thing happened on my election. I was ahead by 1741 
votes on election day and with the early vote. But then, when 
we talked about the absentees, I actually--that 1700-vote 
spread was pulled down to only 1600--or only to 67 votes.
    And again, you just have to--you have to see problems in 
the solution.
    Mr. Chairman, I want to compliment you on this panel. I 
think that with the three of us up here and with this panel, I 
believe that if it were up to us, we could sit down and craft a 
bill to take us somewhat closer to the goal of fair and timely 
elections.
    I know that I could work with every single member. Ms. 
Hensley and Mr. Yazzi both have good, compelling points that we 
need to remember any time we're trying to make changes in the 
system. Ms. Walker is objective and has presented good evidence 
about the concerns that we literally face in creating IDs for 
people.
    And then Mr. Bryant, Ms. Perea and Representative Fox-Young 
have all presented good information, saying that we probably 
can do better. We should do better.
    And so, from my perspective, from New Mexico, I appreciate 
you coming into the Second District and having this hearing. 
Because I believe if it were up to this panel here, the groups 
at the two tables, we could come to a resolution.
    Unfortunately, we have to get 218 votes, not three votes, 
in the Congress. So it gets a little bit thornier aswe spread 
it out across the country.
    But I appreciate every single person's testimony today and 
the balance they bring to the--to the hearing.
    And with that, I would give back my time, Mr. Chairman. 
Thanks again for being in the Second District of New Mexico.
    The Chairman. Thank you. And it's been a real pleasure to 
be here today. And you saved me some work by giving the thank 
yous that I was going to give.
    You've been a superb panel, very diverse but very 
articulate, very capable and you really made your points well. 
And that's extremely useful to us.
    We have a series of hearings we're hoping to have on this 
issue, to go to the different states and find out what the 
problems are in various places.
    I am just very delighted with the testimony and the 
responses that we heard. I know there are a lot of people who 
are here that are interested and haven't had a chance to speak. 
If anyone has a pressing need to talk to me afterwards, I will 
stick around for a little while and be happy to chat with you.
    But our objective, as I said at the beginning, is to make 
sure that every person in this nation who is legally entitled 
to vote can vote without encumbrance, and at the same time, 
make sure that their vote is not diluted by people or 
organizations who are diluting the vote by having illegal votes 
cast. So that is my objective, and I'm going to try to be as 
fair as I can about it.
    I certainly thank everyone here for their assistance. I 
thank Ms. Lofgren for coming out from California for this. And 
Representative Pearce was very helpful in organizing this 
session.
    Ms. Lofgren. Mr. Chair.
    The Chairman. I have a little--yes?
    Ms. Lofgren. I would like to ask unanimous consent to 
submit several letters for the record, as well as the written 
statements from the witnesses.
    The Chairman. Fine. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0169A.120
    
    [GRAPHIC] [TIFF OMITTED] T0169A.121
    
    [GRAPHIC] [TIFF OMITTED] T0169A.122
    
    [GRAPHIC] [TIFF OMITTED] T0169A.123
    
    [GRAPHIC] [TIFF OMITTED] T0169A.124
    
    [GRAPHIC] [TIFF OMITTED] T0169A.125
    
    [GRAPHIC] [TIFF OMITTED] T0169A.126
    
    [GRAPHIC] [TIFF OMITTED] T0169A.127
    
    [GRAPHIC] [TIFF OMITTED] T0169A.128
    
    The Chairman. I've got a little bookkeeping here to do 
before we close.
    First of all, I want to thank again our distinguished 
witnesses for their time, preparation and thoughtful comments. 
And it does take time to prepare the thoughtful comments you 
presented.
    And I appreciate the staffs of the various representatives 
for their work here and the additional work in setting up this 
hearing.
    I ask unanimous consent that members and witnesses have 
seven calendar days to submit material for the record, 
including additional questions of the witnesses, and for those 
statements and materials to be entered into the appropriate 
place in the record.
    Without objection, the material will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conformity changes on all matters considered by 
the committee at today's hearing.
    Without objection, so ordered.
    My final comment, I agree with you in the three points you 
raised about the immigration bill. And I'm hopeful that we 
can--if we pass a bill, we can certainly take care of at least 
those three points.
    With that, once again, thank you very much. And the hearing 
is adjourned.
    [Whereupon, at 11:14 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
